Semiannual Report
 to the Congress
April 1, 1996 - September 30, 1996




    U.S. General Services Administration
         Office of Inspector General
           Foreword

This report, submitted pursuant to the Inspector General Act of 1978, as
amended, summarizes the activities of the Office of Inspector General (DIG)
for the 6-month reporting period that ended September 30, 1996.

The 01G continued to work closely with GSA management in assisting the
Agency to identify and implement sound business management and
operational improvements in its various business lines and service
operations. We continued to provide advisory services to GSA s Federal
Operations Review Model (FORM) teams and to provide independent
analyses of FORM assessment results. We also expanded our advisory
services initiative by issuing several advisory evaluations informing
managers of opportunities for operational improvements. An example of this
effort was an advisory report to Agency management on "best practices" of
public and private entities operating supply systems similar to GSA s
Customer Supply Centers.

During this reporting period, we identified almost $300 million in financial
recommendations on how funds could be put to better use and in other
program savings. In addition, 252 referrals were made for criminal
prosecution, civil litigation, and administrative action. The DIG also
reviewed more than 250 legislative and regulatory matters and received
almost 2,500 Hotline calls and letters.

In our ongoing effort to meet the objectives of the Government Performance
and Results Act, this office engaged in a strategic planning process designed
to place the 01G in the best position to enhance the overall performance of
GSA while complying with our statutory mandate to prevent and detect fraud,
waste, and abuse in GSA's programs and operations. Our strategic planning
efforts included development of an 01G performance plan which will help us
align our activities so they are more consistent with the Agencys strategic
goals and business objectives. As part of this process, we have begun to
reengineer our report development process, design better ways to assist
Agency management improve its operations, and streamline our internal
organization to increase our own operating efficiencies.

I want to take this opportunity to thank the GSA Acting Administrator, GSA s
senior managers, and Members of Congress for their support. I also want to
commend the DIG employeesfor their continued dedication and
accomplishments during these times of reform initiatives and downsizing.



WILLIAM R. BARTON
Inspector General

October 31, 1996
           ble of Contents

                                                                                                                        Page

Summary of OIG Performance .................................................................................. v

Fiscal Year 1996 Results .......................................................................................... vi

Executive Summary ................................................................................................ vii

OIG Profile ................................................................................................................ 1

Procurement Activities .............................................................................................. 2

Reviews of GSA Programs ........................................................................................ 9

Prevention Activities ............................................................................................... 22

Review of Legislation and Regulations ................................................................... 24

Statistical Summary of OIG Accomplishments ...................................................... 26

Appendices

Appendix I - Significant Audits from Prior Reports ............................................... 33

Appendix II - Audit Report Register ....................................................................... 36

Appendix III - Delinquent Debts ............................................................................. 51

Appendix IV - Reporting Requirements ................................................................. 52




                                                                                         Office of Inspector General iii
                   Summary of OIG Performance

OIG Accomplishments    April 1, 1996 To September 30,1996

                       Total financial recommendations                                 $297,652,433

                       These include:

                           • Recommendations that funds be put
                             to better use                                             $285,849,766

                           • Questioned costs                                            $11,802,667

                       Audit reports issued                                                 186

                       Referrals for criminal prosecution, civil
                       litigation, and administrative action                                252


Results Attained       Management decisions agreeing with
                       recommendations, civil settlements, and
                       court-ordered and investigative recoveries                      $269,206,260

                       Indictments and informations on criminal referrals                     17

                       Cases accepted for criminal prosecution                               18

                       Cases accepted for civil action                                         2

                       Successful criminal prosecutions                                      20

                       Civil settlements                                                     10

                       Contractors suspended/debarred                                        99

                       Employee actions taken on administrative
                       referrals involving GSA employees                                       8




                                                                            Office of Inspector General v
                                                                    6 Results

                                       During Fiscal Year (FY) 1996, OIG activities resulted in:

                                       •   Almost $513 million in recommendations that funds be put to better use and in
                                           questioned costs. If adopted, these recommendations ultimately result in savings
                                           for the taxpayers.

                                           Management decisions to put $337.4 million in funds to better use based on OIG
                                           recommendations.

                                       •   409 audit reports that assisted management in making sound decisions regarding
                                           Agency operations.

                                       •   13 implementation reviews that tracked the progress of actions in response to
                                           internal audit reports.

                                           $51.4 million recovered as a result of management decisions to recover funds, civil
                                           settlements, court-ordered recoveries, and investigative recoveries.

                                           354 new investigations opened and 408 cases closed.

                                       •   37 case referrals (66 subjects) accepted for criminal prosecution and 8 case
                                           referrals (14 subjects) accepted for civil litigation.

                                           32 criminal indictments/informations and 25 successful prosecutions on criminal
                                           matters referred.

                                       •   14 civil settlements and 2 judgments.

                                           21 referrals to other Federal agencies for further investigation.

                                       •   34 employee actions taken on administrative referrals involving GSA employees.

                                       •   139 contractor suspensions and 108 contractor debarments.

                                           410 legislative matters and 53 regulations and directives reviewed.

                                           4,080 Hotline calls and letters received of which 176 warranted further GSA
                                           action.




vi Semiannual Report To The Congress
Executive Summary

GSA's environment remains one of budget constraints, downsizing, and reform
initiatives designed to improve, streamline, or alter GSA's existing activities and
work processes. Within this climate, the OIG has continued to work closely with
Agency management by providing an independent review of GSA's program results
as well as alternatives for improving service delivery. We have also strived to expand
the variety offormats used for reporting our analyses, thereby enhancing the value of
our services.

Two significant advisory evaluations were issued without making formal
recommendations. The first advisory report identified ways that GSA could reduce
operating costs, maximize benefits, and expand delivery service and covered areas in
its newly initiated program of next-day delivery of office supplies (page 3). In the
second report, we benchmarked GSA's customer supply center operations against
industry's "best practices" and made suggestions on how to improve customer service
and reduce operating costs (page 9).

The OIG continued its involvement with GSA's Federal Operations Review Model
(FORM), a multi-step analysis developed by GSA to determine the most cost-
effective and efficient ways to deliver GSA's major business line services. We believe
the FORM process has been instrumental in improving the delivery and reducing the
cost of GSA's services. This period, we issued reports addressing the Supply!
Procurement and the Information Technology Integration business lines. As in
previous FORM reports, our results concluded that the FORM evaluations should not
be relied upon for determining which options result in the lowest operating costs
because better cost data is needed for comparing competing delivery options.
Benchmarking criteria used in each FORM analysis were either limited in number or
were not necessarily comparable to other private or public entities engaged in similar
activities (page 10).

We also continued our emphasis on conducting comprehensive program reviews and
making recommendations for improvement in several of GSA's major programs and
activities. We completed evaluations on a primary method the Agency uses to provide
automated data processing services (page 5), and the impact of downsizing buyouts
upon GSA's ability to fill key management vacancies, including how GSA
implemented the restrictions against reemploying buyout recipients (page 11). We
also issued reports on three major activities of the Chief Information Officer's (CIa)
operations. The CIa provides Agencywide leadership and technology for using
information resources. These reports covered the importance of defining, planning,
and coordinating the procurement of new information systems; the conversion of
computer systems for the year 2000; and the management of licensed software
(page 13). Other evaluations continued recommendations directed at improving
security (page 16), ensuring donated property is used for its intended purpose
(page 17), and encouraging the use of electronic funds transfer of payments made to
GSA for rent collections, data processing and telephone charges, and utility and
reimbursable work authorizations (page 20).

The OIG continued to provide procurement support to Agency contracting officers
and to protect the integrity of GSA's programs and operations by detecting and
preventing fraud, waste, and abuse. This period several private sector contractors
agreed to pay over $12 million to resolve potential civil liability under the False


                                                           Office of Inspector General vii
                                         Executive Summary

                                         Claims Act (page 2). A joint Federal Bureau of Investigation and OIG investigation
                                         uncovered a bid-rigging scheme on a series of office property leases (page 4). Other
                                         investigations resulted in civil recoveries, convictions, and/or suspension and
                                         debarments in cases involving mail fraud, false claims, and false pretenses for a
                                         variety of products and services including car washes, wall art, bakery equipment, and
                                         computer forms (pages 5 through 8).

                                         The OIG made almost $300 million in financial recommendations to better use
                                         Government funds and other program costs savings; made 252 referrals for criminal
                                         prosecution, civil litigation, and administrative actions; reviewed over 250 legislative
                                         and regulatory actions; and received almost 2,500 Hotline calls and letters. See page v
                                         for a summary of this period's performance and page vi for a FY 1996 summary of
                                         accomplishments. We are continuing to revitalize our organization and abilities to
                                         provide the services and products GSA needs to enhance its management and overall
                                         performance. We are also seeking the best way to align our activities so that they
                                         support GSA's strategic goals while at the same time complying with our statutory
                                         mandates.




viii Semiannual Report To The Congress
                               OIG                file

                      The GSA OIG was established on October I, 1978 as one of the original 12 OIGs
                      created by the Inspector General Act of 1978. The OIG' s six components work
                      together to perform the missions mandated by the Congress.

                      The OIG provides nationwide coverage of GSA programs and activities. It consists
Organization          of:

                          The Office of Audits, an evaluative unit staffed with auditors and analysts who
                          provide comprehensive audit coverage of GSA operations through program
                          performance reviews, internal controls assessments, and financial and mandated
                          compliance audits. It also conducts external reviews to support GSA contracting
                          officials to ensure fair contract prices and adherence to contract terms and
                          conditions.

                          The Office of Investigations, an investigative unit that manages a nationwide
                          program to prevent and detect illegal and/or improper activities involving GSA
                          programs, operations, and personnel.

                          The Office of Counsel to the Inspector General, an in-house legal staff that
                          provides legal advice and assistance to all OIG components, represents the OIG
                          in litigation arising out of or affecting OIG operations, and manages the OIG' s
                          legislative/regulatory review functions.

                          These functions are supported by the Office of Administration, the Office of
                          Quality Management, and the Internal Evaluation Staff. These components
                          provide in-house information systems, budgetary, administrative, personnel, and
                          communications services; promote and coordinate the Total Quality Process
                          program; and plan and direct field office appraisals and internal affairs reviews of
                          OIG operations.

                      The OIG is headquartered in Washington, D.C., at GSA's Central Office building.
Office Locations      Field audit and investigations offices are maintained in Boston, New York,
                      Philadelphia, Atlanta, Chicago, Kansas City, Fort Worth, San Francisco, and
                      Washington, D.C. Sub-offices are also maintained in Auburn, Cleveland, and Los
                      Angeles.

                      The OIG started FY 1996 with a total on-board strength of 336 employees. As of
Staffing and Budget   September 30, 1996, our on-board strength was 314 employees.

                      The OIG's FY 1996 budget was approximately $33 million.




                                                                                   Office of Inspector General 1
                                      Procurement Activities

                                       GSA is responsible for providing working space for almost 1 million Federal
                                       employees. GSA, therefore, acquires buildings and sites, constructs facilities, and
                                       leases space, as well as contracts for repairs, alterations, maintenance, and
                                       protection of Government-controlled space. GSA also operates a Governmentwide
                                       service and supply system. To meet the needs of customer agencies, GSA contracts for
                                       billions of dollars worth of equipment, supplies, materials, and services each year.
                                       We review these procurements on both a preaward and postaward basis to ensure
                                       that the taxpayers' interests are protected.


Significant OIG                        Over $12 Million in Civil Recoveries
                                       During this period, the Government entered into 10 settlement agreements in which
Accomplishments                        companies agreed to pay over $12 million to resolve their potential civil liability
                                       under the False Claims Act. These agreements, negotiated by representatives of the
                                       Department of Justice and the GSA GIG, reflect the ongoing efforts of the GIG to
                                       pursue cases involving procurement fraud and practices which threaten the integrity
                                       of the Government's procurement process.

                                       Many of these cases involved procurements under GSA's Multiple Award Schedule
                                       (MAS) program. Under this program, GSA negotiates contracts with a number of
                                       vendors who may then sell covered products to Federal agencies at established
                                       contract prices. Consistent with the provisions of the Truth in Negotiations Act and
                                       the Competition in Contracting Act, the process is based on the principles of full and
                                       open disclosure and fair negotiations. Vendors must provide current, accurate, and
                                       complete pricing information-including information about discounts granted their
                                       most favored commercial customers-during contract negotiations. Relying on this
                                       information, GSA contracting personnel then seek to obtain the best possible prices
                                       for the Government. In cases where vendors fail to provide current, accurate, or
                                       complete information, the Government may pay artificially inflated prices for
                                       products and services purchased. Highlights of some of these cases follow.

                                           The OIG provided support to the Department of Veterans Affairs in its
                                           investigation of a food service and hospital uniform manufacturer. The company
                                           agreed to pay $6,000,000 to settle the Government's claims that it failed to
                                           provide current, accurate, and complete information to GSA and Veterans Affairs
                                           officials negotiating MAS contracts. $1,000,000 of the settlement is attributed to
                                           GSA and represents treble damages plus penalties for the alleged false claims.

                                           In a qui tam case jointly handled by the OIG and the Department of Defense, a
                                           company that contracted with Federal agencies to provide architectural and
                                           engineering services agreed to pay $4,000,000 to settle its potential civil False
                                           Claims Act liability for falsifying its pension contribution costs when claiming
                                           those costs from the Government. The qui tam provision of the False Claims Act
                                           allows individuals to bring suit, on behalf of themselves and the Federal
                                           Government, against contractors who submit false claims or false statements to
                                           the Government. Approximately 20 percent of the damages to the Government in
                                           this case are attributable to a GSA project.

                                       •   A company, and two of its officials, that sold framed wall art to the Government
                                           through a MAS contract agreed to pay $900,000 to settle their potential civil



2 Semiannual Report To The Congress
Procurement Activities

     False Claims Act liability. The Government alleged that the company did not
     manufacture the wall art in question and actually did business solely with Federal
     Government entities. The company bought art from a sister corporation and then
     sold the art to the Government at greatly inflated prices. The company and one of
     its officials also each pled guilty to one count of mail fraud in connection with
     this matter (see page 6).

     A company that had a MAS contract to provide air treatment, furnace, and
     plumbing equipment agreed to pay $450,000 to settle its potential civil False
     Claims Act liability for charging Federal customers more for its products than it
     had agreed in its contract. This amount is in addition to $80,012, in cash and
     credits, which the contractor returned to various Government agencies
     subsequent to the GSA OIG investigation. This investigation and an OIG audit of
     the company's contract for the years 1990-1994 found that the company had
     regularly charged Federal customers more than the contract allowed.

     A company that provided materials for containing fuel and other chemical spills
     agreed to pay $380,000 to settle GSA's claims that it failed to fully disclose its
     discounting practices when it negotiated its MAS contract. An OIG review of the
     company's 1988-1991 contract found that Government customers paid a total of
     $57,945 more for the company's product than they would have had there been
     full disclosure. In addition, the review found that, during the life of the contract,
     the company failed to pass along to its Government customers the discounts it
     had granted to its commercial customers, as was required by its contract. As a
     result, the Government paid $132,107 more than it should have for the products.

     A distributor of paper and packaging products paid $85,000 to settle the
     Government's claims that it overcharged Federal customers who purchased their
     products through the MAS program. The matter was investigated jointly by the
     OIG and the Federal Bureau of Investigation.

     A company that contracted to provide preventive maintenance and repair services
     for elevators in a major Federal office building paid $75,000 to settle the
     Government's claims that it violated the False Claims Act by submitting false
     reports about the quality and amount of its contract performance. The amount
     paid was in addition to amounts already withheld by the Agency for the cost of
     work not performed.


 Next-Day Delivery of Office Supplies
 GSA initiated a supply program offering Federal agencies next-day delivery of a wide
 choice of office supplies at competitive prices, while eliminating individual contract
 award and administration costs for agencies purchasing directly from vendors. The
 program was designed to enable the Government to rely more on the commercial
 marketplace and expose GSA to competition, as recommended in the National
 Performance Review, and provide an additional outlet for items produced by the
 National Industries for the Blind (NIB) and Severely Handicapped (NISH) and
 Federal Prison Industries (UNICOR).




                                                               Office of Inspector General 3
                                      Procurement Activities

                                       In April of 1996, GSA awarded contracts to five office supply vendors for commonly
                                       used office supply items. Vendors are required to make deliveries to 90 percent of the
                                       Government installations in the contiguous United States by the next business day.
                                       Additionally, vendors must sell items produced by NIB, NISH, and UNICOR, remit a
                                       one percent industrial funding fee quarterly to GSA, and permit agencies to use the
                                       Government's commercial credit card to make payment.

                                       The OIG review of the program initiatives concluded that:

                                       •   The contract will accomplish GSA's objectives to speed product delivery and
                                           reduce costs to its customers;

                                       •   GSA may be able to maximize the benefits of its initiative by expanding the
                                           delivery area to include Alaska, Hawaii and Puerto Rico;

                                       •   Vendors could reduce catalog issuance costs and subsequently pass on these
                                           savings to the Government if catalog requirements could be modified to conform
                                           more closely with commercial practices; and

                                       •   Savings could be passed on to the Government if GSA and vendors educate and
                                           encourage agencies to adopt procurement practices that minimize vendor costs by
                                           maximizing ordering efficiency.

                                       Finally, since this program could have a substantial impact on GSA's procurement
                                       and supply distribution processes, we advised that it may be beneficial for the Agency
                                       to evaluate its current supply system before it focuses its efforts and resources on
                                       optimizing the value of the initiative. Besides determining the potential impact of
                                       next-day delivery contracts on the supply program, GSA may identify private sector
                                       practices that could be adopted or integrated with current Agency practices.

                                       Because the review was advisory in nature, the April 24, 1996 report does not contain
                                       formal recommendations.


                                       Contract Bid-Rigging
                                       A joint Federal Bureau of Investigation (FBI) and GSA OIG investigation resulted in
                                       the conviction of three real estate developers and a partnership on July 3, 1996 after
                                       they pled guilty to a scheme to rig bids on a series of property leases to the
                                       Government.

                                       The investigation stemmed from an OIG audit referral on questionable costs
                                       associated with a proposed GSA lease. The investigation determined that the three
                                       defendants conspired to conceal that they had disclosed prices to other bidders. Two
                                       individuals pled guilty in Federal court to single, separate misdemeanor counts of
                                       making false certifications. The other individual pled guilty to a single, separate
                                       misdemeanor count of aiding and abetting false certifications. The partnership pled
                                       guilty to one felony count of major fraud against the Government.

                                       As a condition of their guilty pleas, the defendants have agreed to pay restitution of
                                       $1.5 million to the Government. Also, the three defendants and a total of 13 business



4 Semiannual Report To The Congress
    curement Activities

entities will remain debarred from Federal contracting or subcontracting for 2 years
from the date they are sentenced. Sentencing is scheduled for later this year.


False Claims Conviction
On August 16, 1996, a GSA vendor was sentenced in U.S. District Court to 8 months
incarceration, ordered to pay restitution of $2,500 and serve 150 hours of community
service, and placed on 36 months probation in connection with his conviction for
filing false claims.

An OIG investigation was initiated when the GSA fleet management center indicated
that they may have received fraudulent invoices from a GSA vendor for car washes.
The fleet management center controls and monitors use of Government leased
vehicles to Federal agencies. The GSA vendor provided car washes on vehicles leased
to a Federal agency that employed him. Our investigation disclosed that at least
25 percent of the claims submitted by the vendor were false.

Debarment proceedings are being initiated on both the company and the individual.


Mail Fraud Conviction
On August 15, 1996, a wall art corporation and its operations manager pled guilty in
U.S. District Court to charges of mail fraud in connection with a GSA MAS contract.
Sentencing is scheduled for December 1996.

An OIG investigation was initiated after GSA requested that a postaward audit be
conducted regarding possible false statements made concerning the production point
of contracted items, product commerciality, and other information supplied to GSA
during contract negotiations. Since the request involved allegations of false
statements, the Office of Audits referred the matter directly to the Office of
Investigations. The investigation determined that, contrary to representations by the
wall art contractor, the entity had no commercial customers and was not a
manufacturer of the items sold. Furthermore, the operations manager employed by the
contractor owned a separate company that supplied identical wall art to the private
sector at half the cost. Contract sales for the 3 year period exceeded $2,300,000.

Suspension and debarment proceedings concerning the corporation, operations
manager, and related individuals and businesses are ongoing.


The Federal Information Systems Support Program
GSA provides automated data processing services to Federal agencies through
various programs. Under the Federal Information Systems Support Program (FISSP),
GSA awards contracts and issues task orders to commercial vendors for an array of
information technology services to be provided to client agencies.

When GSA transferred responsibility for issuing FISSP task orders from one region to
another, the OIG initiated a review to determine whether program personnel were
effectively processing task orders. While the audit found that FISSP personnel were
generally processing task orders in accordance with program requirements, we



                                                            Office of Inspector General 5
                                      Procurement Activities

                                       identified one task order valued at approximately $1.4 million that had been issued for
                                       work that was outside the scope of the FISSP contract. Agency officials explained
                                       that they had been using the contract to obtain personnel resources for their program
                                       because of high customer demand and the current hiring freeze at GSA.

                                       Our report recommended that proper sources be used to obtain contract personnel
                                       needed to perform work services. Management agreed with our July 22, 1996, report,
                                       and informed us that action has been initiated to award a separate contract for
                                       personnel to provide procurement support services for the program. The audit is still
                                       in the resolution process.


                                       False Pretenses Conviction
                                       On August 26, 1996, a former bakery manager for a nonprofit agency was sentenced
                                       in State Court to 10 years imprisonment (suspended) and ordered to pay restitution of
                                       $4,000 for obtaining money or signature by false pretenses.

                                       The investigation was initiated when the State agency for surplus property notified
                                       GSA that a nonprofit agency was not in possession of equipment that the manager had
                                       signed for on behalf of the agency. The investigation determined that the manager
                                       went to the donation site, purchased various pieces of bakery equipment, and sold that
                                       equipment to an out-of-state baking equipment liquidator. Although the nonprofit
                                       agency was not aware of the manager's actions, it received a commission from the
                                       liquidator.


                                       Utility Services Contracting Activities
                                       Inspired by Vice President Gore's National Performance Review, GSA initiated a
                                       project to explore simplifying the procurement of utility services when only one
                                       source is available. The intent was to improve efficiency and timeliness in purchasing
                                       from single sources and to generate cost savings by reducing workload and related
                                       expenses. GSA discontinued the initiative because of conflicts with the Federal
                                       Acquisition Regulation (FAR) requirements and legal opinions resulting from Federal
                                       case law. During 1995, GSA introduced Federal acquisition reform proposals for
                                       consideration by Congress, but those proposals were not incorporated into the Federal
                                       Acquisition Reform Act of 1996.

                                       GSA is required by Federal regulations to obtain contracts from utility companies
                                       when the estimated cost of services exceeds $50,000. However, due to the nature of
                                       the utility industry, a written contract generally does not result in more advantageous
                                       prices and terms. Many utility service rates are fixed by tariff pricing structures
                                       regulated by state public commissions. Whether or not a contract is negotiated, prices
                                       and terms are the same as those for other commercial customers obtaining similar
                                       utility services. When contracts exceed $500,000, utility companies must also submit
                                       subcontracting plans for utilizing small and disadvantaged businesses to comply with
                                       the Small Business Act of 1978.

                                       Many utility companies decline to enter into contracts with GSA. The FAR allows
                                       GSA contracting officers to use purchase orders in lieu of contracts to obtain services
                                       in such cases, since there is often only one service provider available. Nevertheless,



6 Semiannual Report To The Congress
Procurement Activities

 the contracting officer must obtain signed statements from utility companies giving
 the reasons for refusal. Also, the contracting officer must maintain history files of
 pertinent documentation for the services involved, including estimated annual costs,
 rate schedules, and information on connection charges. Additional attempts to
 negotiate contracts must be made annually. When utility companies refuse to sign
 contracts, contracting officers must still expend administrative time and effort to
 satisfy the documentation requirements of the FAR.

 During this reporting period, the OIG reviewed utility services contracting activities
 in one region to determine if GSA derived any benefits from its efforts to negotiate
 these contracts. About 75 percent of utility contracts in the region are with regulated
 sole source suppliers; 96 percent are under $500,000.

 We concluded that procurement personnel expend considerable time and effort
 complying with the FAR, with little benefit to the taxpayer. Recognizing GSA's past
 efforts, we recommended that the Agency again attempt to amend the FAR.
 Specifically, it should seek an exemption from the FAR requirement to contract for
 utility services when the estimated value of the services is projected to be less than
 $500,000. We suggested this threshold since most of the contracting effort is
 expended on services below it, and, by using the $500,000 limit, GSA avoids
 potential conflict with the objectives of the Small Business Act of 1978.

 We believe that procurement officials should be allowed, at their discretion, to enter
 into utility service contracts when a better negotiating position would result in
 substantial savings or benefits. Otherwise, officials would accept and pay for utility
 services below the limit under the terms and conditions and at rates approved under
 tariff in the same manner as other utility customers.

 The Acting Regional Administrator concurred with our August 22, 1996, report
 recommendation. The audit is still in the resolution process.


 Employee Allegation Results in Conviction
 On July 30, 1996, the foreman of a construction company was sentenced in U.S.
 District Court to 36 months probation for offering a bribe to a Federal official.

 The conviction resulted from an investigation initiated after a GSA employee reported
 that the foreman of the construction company offered him a bribe of $1 ,000. In return,
 the GSA employee was to assist the company in obtaining future Government
 contracts.

 Debarment proceedings have been initiated on both the foreman and the company.


 Program Fraud Civil Remedies Act
 On August 16, 1996, a GSA computer forms company agreed in a settlement to pay
 the Government $90,000 under the Program Fraud Civil Remedies Act. Under the
 Act, Federal agencies can institute administrative proceedings to recover damages and




                                                               Office of Inspector General 7
                                      Procurement Activities

                                       penalties from a person or entity that presents false claims or makes false statements
                                       to the Government. Agencies can recover twice the amount of damages to the
                                       Government and penalties of up to $5,000 per violation.

                                       The OIG initiated actions under the Act after a GSA quality assurance specialist
                                       reported that the company might not be testing its paper products before delivery.
                                       Under the contract terms, the company was to ensure that quality control tests were
                                       performed on each lot of paper before shipment to GSA. We found that the company
                                       shipped paper which had not been tested, and prepared and submitted false test
                                       certifications for these paper products.




8 Semiannual Report To The Congress
                  Reviews of GSA Programs

                     GSA is a central management agency that sets Federal policy in such areas as
                     Federal procurement, real property management, and telecommunications. GSA also
                     manages divers(fied Government operations involving buildings management, supply
                     facilities, real and personal property disposal and sales, data processing, and motor
                     vehicle and travel management. In addition, GSA manages 197 accounting funds and
                     provides cross-servicing support for client agencies. Our audits examine the
                     efficiency, effectiveness, and integrity of GSA programs and operations and result in
                     reports to management. Our internal audits program is designed to facilitate
                     management's evaluation and improvement of control systems by identifying areas (~f
                     vulnerability and providing informational and advisory services.


Significant DIG      Benchmarking GSA'S Customer Supply Center
                     Since 1982, the GSA has operated the Customer Supply Center (CSC) program as a
Accomplishments      means of quickly filling agencies' orders for business items, primarily office supplies
                     and paper products. Today,ll CSCs offer up to 12,000 items. Sales in FY 1995 were
                     about $250 million.

                     This period, we issued an advisory report to management conveying the results of our
                     "best practices" review of public and private entities operating supply systems similar
                     to the CSCs. In order to identify business practices for GSA's consideration and
                     possible adoption, the OIG auditors used "benchmarking" techniques, to compare
                     industry's best practices with GSA's, looking for ways to enhance programs, improve
                     customer service, and reduce costs.

                     While private sector vendors use some of the same procedures as the CSCs to
                     minimize costs and maximize customer satisfaction, they also differed in several
                     interesting respects in procurement, warehousing, pricing, and customer service
                     practices. Vendors indicated that these practices have enabled them to lower costs,
                     offer more products, expedite delivery, and enhance customer satisfaction. For
                     example:

                     Procurement: Private vendors carry a limited number of brand names which
                     customers prefer. In addition, private vendors make emergency purchases from
                     wholesalers when they deplete their inventory; buy items which only sell in low
                     quantities from wholesalers as needed; and order small quantities to reduce
                     warehousing costs and investment in inventory, while still negotiating favorable
                     pricing and delivery terms.

                     Warehousing: Private vendors typically have many small warehouses located near
                     customers, wholesalers, and carriers which speed up delivery and decrease
                     transportation costs. The warehouses are more mechanized than GSA's and top
                     selling items are stored in a consolidated area for easy access. Vendors obtain
                     inventory directly from suppliers, negotiating short lead times and favorable prices
                     based on annual purchasing volume.

                     Pricing: Private vendors tailor their prices to individual customers based on the
                     volume of business, size of orders, customer location, and level of service. Each
                     customer account bears its true cost and reaps the benefits of cost-lowering practices.




                                                                                  Office of Inspector General 9
                                       views of GSA

                                       Customer Service: Vendors have enhanced marketing efforts and take extra steps to
                                       avoid rejecting customer orders; notifying customers of alternatives to satisfy their
                                       needs, thereby maintaining goodwill.

                                       Because the review was advisory in nature, the September 27, 1996 report does not
                                       contain formal recommendations.


                                       Federal Operations Review Model Activities
                                       This period the OIG completed its review of the results of the Agency's Federal
                                       Operations Review Model (FORM) process, a multi-step analysis to determine the
                                       most efficient and cost-effective means to deliver GSA's major business line services.
                                       As highlighted in our previous Semiannual Report, GSA conducted financial analyses
                                       to identify and initiaIly rank possible alternatives for delivering services, and the OIG
                                       served as ex-officio advisors for each of the business line evaluation teams. Upon
                                       completion of the team evaluations, the OIG also independently determined whether
                                       the results provided a reasonable, supported, and unbiased methodology for
                                       developing delivery options to provide services at the lowest cost to the taxpayer.

                                       We believe the FORM process has been instrumental in improving the delivery and
                                       reducing the cost of GSA's services. We issued two audit reports this period
                                       addressing the results of the FORM analysis process for the Supply/Procurement and
                                       the Information Technology Integration business lines. Like the audits performed
                                       during previous semiannual periods, we reported that the business line evaluations
                                       should not be relied upon for determining which options would result in the lowest
                                       cost to the taxpayer because best cost data is needed for comparing competing
                                       delivery options.

                                           SupplylProcurement Business Line
                                           Our OIG report concluded that benchmarking factors used for comparing
                                           business line activities with private sector or other Federal operations were not
                                           necessarily comparable or were based upon a limited number of benchmarking
                                           partners. We also questioned the application of some benchmarking factors:

                                           • When computing business line cost alternatives, one evaluation team applied
                                             the "best in class" benchmarking factors that were provided by the Agency's
                                             private sector consultant. Our review disclosed that none of the
                                             benchmarking partners were "best in class" in all categories and some
                                             partners did not provide benchmarking data in all classes. Accordingly, GSA
                                             was comparing itself to a hypothetical case entity, composed of the best
                                             elements of benchmarked firms.

                                           • The FORM cited a benchmark for outbound transportation costs based upon a
                                             private sector company that shipped from distribution centers to retail outlets.
                                             Our review noted that this benchmark was not fuIly comparable to GSA
                                             distribution center operations that make both smaIl parcel shipments to end
                                             users as weIl as large shipments to other storage facilities.




10 Semiannual Report To The Congress
Reviews of GSA                             grams

       Information Technology Integration Business Line
       The FORM report did not present a reasonably supported basis for developing
       options that will result in the lowest cost to the taxpayer. Questions were raised
       with the information underlying benchmarking criteria upon which comparisons
       were made between current operations and alternatives considered by the FORM
       team. For example, one evaluation team applied a timeliness benchmark factor
       based upon the award of delivery orders within 30 calendar days. Our review
       revealed that this benchmark factor was based upon a process goal in lieu of
       actual performance and did not take into consideration the level of effort required
       to award orders within the designated timeframe.

       The OIG report, while agreeing with the leveraging concept (benefit to be
       derived as a result of instituting an alternative), questioned the reasoning used to
       assign the dollar values as measurements of such benefits under various delivery
       options. For example, the value leverage calculation for assessing one delivery
       option was based on a premise which required hiring additional personnel. This
       would be inconsistent with the FORM process where options provide the same
       level of services for comparative purposes. In addition, our report cautioned the
       extent to which in depth analyses were performed to arrive at team conclusions.

   As noted above, we believe the FORM process, to include the reviews completed this
   period, has been instrumental in improving the delivery and reducing the cost of
   GSA's services. The development of cost data for competing delivery options has
   revealed a need for better management information on actual program costs, and has
   shown that additional analyses are needed before decisions can be reached about
   which delivery options provide the best value for the taxpayer. As GSA moves
   forward toward implementation of selected alternatives, the OIG plans to continue its
   efforts to assist Agency management while safeguarding the interests of the Federal
   taxpayer.


   GSA Buyouts
   Under authority of the Federal Workforce Restructuring Act of 1994 (the Act), GSA's
   Administrator offered two rounds of voluntary separation incentive payments
   (buyouts) to all permanent GSA employees. The intent was to reduce the size of the
   Federal workforce and avoid or minimize the need for reductions-in-force and other
   types of involuntary separations. About 4,100 GSA employees accepted buyouts, with
   2,400 opting to separate by December 31, 1994 under the first offering, and the
   remainder leaving by March 31, 1997.

   Our office conducted two reviews addressing the impact these buyouts may have on
   the Agency. The first review assessed GSA's ability to fill vacancies created by the
   buyouts at the GS-141evel and above in Central Office activities. The second review
   evaluated GSA's implementation ofthe Act and its restrictions on reemployment of
   buyout recipients.

       Ability to Fill Vacancies
       Our audit assessed the Agency's plan to minimize the impact of the loss of
       expertise, leadership, and institutional experience by the departure of key
       personnel over a relatively short time period. We looked at the experience and



                                                                Office of Inspector General 11
                                 Reviews of GSA Programs

                                          educational level of the pool of potential successors to the Central Office GS- 14s
                                          and above accepting the buyout.

                                          We reported that, in spite of the pending loss of senior personnel, GSA will still
                                          have the leadership and expertise necessary to provide program direction to
                                          accomplish its missions. GSA organizations losing large numbers of employees
                                          had initiatives to address the loss, ranging from major reorganizations to redefining
                                          the role of the Central Office in policy making and service delivery. Considering
                                          these initiatives and the experienced and educated employees available in the
                                          remaining headquarters workforce, we belicve GSA's programs can be effectively
                                          managed in the foreseeable future.

                                         Only one Central Office organizational component caused some concern. The
                                         Federal Protective Service will lose most of its headquarters management staff at
                                         the end of 1996. In light of the increased protection and security needs identified
                                         for Government facilities in the past year, GSA cannot afford to have any major
                                         disruption in management continuity. We noted that actions have been initiated to
                                         fill key vacant, or soon to be vacated, positions.

                                         Our report concluded that as long as the Federal Protective Service replaces key
                                         personnel in a timely manner, the transition process should proceed with little
                                         disruption in protection and security. Accordingly, our July 8, 1996 report did not
                                         contain any recommendations.

                                       • Reemployment of Buyout Recipients
                                         The Act prohibits buyout recipients from returning to work as either Federal
                                         employees or under personal services contracts with the Federal Government for
                                         5 years after their separation date, unless they repay the buyout. A personal
                                         services contract exists when contractor personnel are subject to relatively
                                         continuous supervision and control of a Federal employee by the contract's terms
                                         or the manner in which the contract performance is managed. Agencies are also
                                         required to perform cost comparisons before contracting out work formerly
                                         performed by buyout recipients, to see if the arrangement is financially
                                         advantageous for the Government.

                                         While we found no GSA buyout recipients returning as Federal employees, we
                                         identified 39 former Federal employees who had returned to work under contracts
                                         awarded by GSA. Although most employees returned under allowable contracts,
                                         10 have returned under contracts that are being managed, in effect, as personal
                                         services contracts. This situation appears to have occurred due to a lack of
                                         clarifying policies and procedures. With staffing on the decline, GSA program
                                         offices will have to either reduce program services or outsource work to maintain
                                         workload, or both. Increased outsourcing heightens the risk of buyout recipients
                                         returning under prohibited situations.

                                         We also found that GSA needs to ensure that required cost comparisons are
                                         completed, as outlined in Office of Management and Budget implementing
                                         guidance. Such cost comparisons must demonstrate that converting the work
                                         previously done by buyout employees to service contracts would be to the
                                         financial advantage of the Government. Program managers stated that the contracts


12 Semiannual Report To The Congress
Reviews of GSA Programs

       need to be used to fill gaps in critical mission areas, with or without performing
       cost comparisons. We recognize that managers may need to contract out some
       tasks to maintain essential services, but adequate cost comparisons are required
       to ensure that GSA complies with the Act.

       The September 30, 1996 report recommended that the Associate Administrator
       for Management Services and Human Resources, with the assistance of the
       Office of General Counsel and other appropriate offices:

       • Take necessary actions to ensure that perceived personal services contracts
         are managed instead as non-personal services contracts; and

       • Clarify policies and procedures for implementing the Act and distribute the
         guidance to employees scheduled to leave under the buyout program,
         contracting officers, and program managers.

       The Associate Administrator generally agreed with our recommendations. The
       audit is still in the resolution process.


   Technology and Information Systems
   GSA'S Chief Information Officer (CIO) coordinates the Agency's internal
   information technology activities. The CIO provides Agencywide leadership,
   direction, and enabling technology for using information resources. Three OIG
   reports addressed topics pertinent to this arena during this semiannual reporting
   period. These reports demonstrate where GSA may be at risk and stress the
   importance of: defining, planning, and coordinating procurement of new information
   systems; assessing and converting systems for the year 2000 date change; and
   preventing misuse of licensed software by GSA employees.

       PBS Information Systems Strategy
       Since 1972, GSA has used a contractor to provide and operate an information
       system to assist the Public Buildings Service (PBS) in managing its operations.
       While the system has served its purpose in tracking massive amounts of real
       estate and project data, it has become functionally obsolete, adversely affecting
       PBS's ability to operate effectively in the modern business environment.
                                        \
       Over the years, GSA has initiated and terminated several efforts to replace its
       contractor-based system. In October 1993, PBS announced that its efforts would
       be redirected from modernizing current systems to using commercial off-the-
       shelf (COTS) software wherever possible to meet its information needs. Costs
       have so far totalled about $7 million, and are projected to exceed $70 million by
       the year 2000.

       The OIG review found that while PBS has taken positive steps to initiate a
       modern open systems environment to address its information technology needs, it
       has not developed a sufficient plan for implementing its COTS strategy.




                                                               Office of Inspector General 13
                                 Reviews of GSA                              grams

                                       Specifically, we determined that PBS has not:

                                           • Fully defined its information systems requirements for the business lines,
                                             PBS, and the Agency as a whole.

                                           • Pursued consistent information technology solutions and may end up with
                                             overlapping, incompatible systems.

                                           • Adequately planned for the transfer of data that needs to be shared among
                                             different business lines since any software acquired will likely require
                                             modification and, once modified, may be more difficult to integrate with other
                                             software packages.

                                           Additionally, the PBS CIa has prescribed standards and guidelines in areas such
                                           as the evaluation of COTS software, systems development, and technical
                                           standards. However, the standards and guidelines are not always followed, nor
                                           are they enforced.

                                           Our September 30, 1996 report recommended that the PBS Commissioner:

                                           • Designate a senior PBS official to assume overall authority, responsibility,
                                             and accountability for the development and implementation of an information
                                             technology plan for PBS; and

                                           • Ensure that current pilot systems and planned software initiatives are not
                                             duplicated and incompatible, and that comprehensive plans are developed for
                                             users to share data.

                                           The PBS Commissioner concurred with our recommendations. The audit is still
                                           in the resolution process.

                                           Conversion of Computer Systems for the Year 2000
                                           With the year 2000 fast approaching, computer industry officials are expressing
                                           concerns over whether computer systems will operate correctly with the new
                                           date. Many computer systems were developed years ago, when it was believed
                                           that systems would be replaced before 2000 and the new date would not be a
                                           concern. These systems assume all dates are in the 1900s and only use the last
                                           two digits of the year to make calculations. When the calendar changes to 2000,
                                           these calculations may be inaccurate or systems may not correctly recognize the
                                           new date and be able to correctly process transactions. GSA relies on a number of
                                           computer systems and applications, some of which are older and use 2-digit
                                           years.

                                           An OIG review showed that GSA has begun to focus management attention on
                                           analyzing and converting computer systems for the year 2000, but its planning is
                                           inadequate to ensure that all GSA systems are analyzed and converted in a timely
                                           and cost-effective manner. GSA is not using the structured planning approaches
                                           recommended by computer experts and has not: developed complete inventories
                                           of computer systems and software to use as a basis for their planning; tested
                                           systems before identifying them as operable in the year 2000; and developed


14 Semiannual Report To The Congress
Reviews of GSA Programs

    contingency plans for managing and operating systems in the event that analysis
    and conversion efforts are not completed in time.

    GSA's efforts are also hampered by a lack of centralized management and
    communication. GSA's Information Technology Council delegated authority for
    analysis and conversion of systems to the individual Services and Staff Offices, but
    did not establish a central management structure to manage and coordinate the
    efforts. Without a structured planning approach, GSA may not be able to provide
    important services to customers. If not operating properly, GSA's computer
    systems could cost the taxpayers interest on late payments, result in unidentified
    vendor overcharges, or generate erroneous management information.

    Our report points out that GSA needs to act now because time and staff available
    for analysis and conversion are decreasing and contractor costs are escalating.
    GSA must plan all conversion efforts, analyze all systems code, convert all faulty
    dates, and perform all testing by January 1, 1999 so that systems may be run a full
    year to ensure that they are operating correctly.

    GSA has never attempted to perform such an amount of work in this short
    timeframe and it will be difficult. Furthermore, the number of in-house computer
    staff who could perform this work has decreased almost one-fourth since 1993 due
    to buyouts and attrition. With fewer computer staff available, GSA may need to
    contract-out for assistance in analyzing and converting systems. However, because
    of increased demand, the cost of contractor services is expected to escalate about
    50 percent per year. Also, with an estimated 20 million lines of code to review at
    the current cost of about $1.00 per line, GSA's contractor costs would now be
    about $20 million; within another year, costs could increase an additional
    $10 million.

    The September 27, 1996 report recommended that the CIa:

    • Provide overall management and monitoring of GSA's conversion plans to
      ensure they are accomplished in a timely and cost-effective manner; and

    • Establish a process for GSA Offices to share information on analysis and
      conversion methodologies and solutions.

    The CIa generally agreed with the recommendations in the audit report. The
    audit is still in the resolution process.

    Managing Software Licenses
    An OIG review revealed that GSA had not issued guidance on the management of
    licensed software within the Agency. With the ease of copying software and the
    common misconceptions regarding copyrights and licensing, GSA faces
    significant risk if employees install unauthorized software on Government
    personal computers or copy authorized software for unauthorized use. Agency
    employees could unknowingly or intentionally infringe on copyrights, exposing
    the Agency to potential civil or criminal penalties as high as $100,000 or
    $250,000 per infringement, respectively. Consequently, we focused our audit to
    address the need for guidance.


                                                           Office of Inspector General 15
                                 Reviews of GSA

                                           Our September 18, 1996 report recommended that the CIO adopt software
                                           industry guidelines to reduce the risk of software copyright infringement.
                                           Specifically, GSA should issue a policy statement on the use of licensed
                                           software and require each employee to acknowledge, in writing, an
                                           understanding of that policy. Management could effectively communicate
                                           specific software policy through the annual ethics training. In addition, we
                                           recommended that the CIO issue guidance establishing accountability for
                                           software, requirements for software documentation, and procedures for
                                           monitoring software used on GSA's personal computers.

                                           Management agreed with the recommendations and is taking action to address
                                           the issues. The audit is still in the resolution process.


                                       Security Clearances and Background Checks
                                       The security of Federal property, personnel, and information continues to be of
                                       critical interest to the Congress, Government employees, and the public. Executive
                                       Orders and the Office of Personnel Management provide guidance for assessing
                                       positions in terms of risk to national security and public trust, and the associated
                                       security clearance and background invcstigations needed. As such, many prospective
                                       Federal employees undergo suitability and background checks. GSA also requires
                                       background checks for most service contract employees working in Federally-
                                       controlled buildings. The OIG, in its continuous efforts to ensure a safe working
                                       environment, performed two additional reviews addressing security clearance and
                                       background issues.

                                           Evaluating Position Sensitivity and Risk
                                           Employees having access to classified information and public trust positions
                                           must undergo suitability and background checks prior to being hired. Further,
                                           once hired, employees having security clearances require periodic background
                                           investigations. The investigative requirements are more intensive, costly, and
                                           time consuming for high risk and sensitivity positions.

                                           Our review determined that GSA could save money and simplify the personnel
                                           security program by reducing the clearance levels for a number of positions.
                                           Additionally, the Agency could improve its security program accountability by
                                           consolidating record keeping and by storing classified materials in one place.
                                           This would allow managers to ensure proper access and possibly reduce the
                                           number of security clearances needed to handle classified material.

                                           The September 27, 1996 report recommended that one region:

                                           •   Review selective position titles and consider lowering security clearances; and

                                           • Consolidate security clearance records and store classified material in one
                                             location.

                                           The Regional Administrator generally agreed with the recommendations in the
                                           report. The audit is still in the resolution process.




16 Semiannual Report To The Congress
views of GSA Programs

    Background Checks on Contractor Personnel
    In order to protect the safety of Government employees and property, GSA
    requires background checks on contractor employees performing janitorial,
    guard, and maintenance services in Federally controlled buildings. GSA service
    contracts generally require contractors to submit a personal background history
    and fingerprint card for each of their employees prior to the employee starting to
    work, or within a minimal number of days before the beginning of a new
    contract, and to renew the information every 3 years.

    This period, an OIG audit revealed that the time required to process the
    background checks was quite lengthy, due in part to large backlogs of
    documentation and a shortage of personnel to process the paperwork. Numerous
    cases were cited where contractor employees were working in Federal buildings
    without initial, or with expired, background checks. Management oversight was
    insufficient to assure that background checks were being performed and updated
    as required.

    Our audit also found that GSA did not always control the preparation and
    issuance of building passes and identification badges for contractor employees.
    At some locations, the contractor was responsible for issuing identification
    badges and building passes. Under such circumstances, GSA had no assurance
    that only authorized personnel were obtaining and retaining the contractor's
    identification badges for access to Federal buildings.

    Further, the report noted that GSA does not require background checks for
    service contracts under $100,000, nor does GSA ensure that background checks
    are included in service contracts awarded by tenant agencies in buildings where
    GSA has delegated operations.

    In light of increasing security concerns for Federal buildings, current GSA
    policies and practices should be reevaluated and modified to maximize the
    effectiveness of the background check program for service contractor employees.
    The OIG recommended that reasonable time frames be established for each stage
    of the background check process; monitoring and oversight procedures be
    strengthened to ensure that required background checks for contractor employees
    are obtained; and Agency officials keep better controls over the preparation,
    issuance, and retraction of building passes and identification badges for
    contractor employees.

    The report, dated August 27, 1996, is still in the resolution process.


Transfer and Donation of Hovercraft Vehicles
In October 1994, GSA transferred 26 Lighter Air Cushion Amphibious Vehic1es-30
(LACV-30), also known as hovercraft, to the Alaska State Agency for Surplus
Property (SASP). The SASP subsequently donated 14 operational LACV-30s to an
Alaska Native Regional Corporation (the Corporation). The Corporation obtained the
hovercraft to promote "economic development," which is defined by the Federal
Property Management Regulations (FPMR) to be the long-term economic growth of
the public served by the public agency. After receiving written allegations raising



                                                             Office of Inspector General 17
                                 Reviews of GSA Programs

                                       serious concerns about the transaction, the OIG initiated a review of the transfer and
                                       donation of the vessels.

                                       A wholly-owned subsidiary of the Corporation entered into a Joint Venture
                                       Agreement (Agreement) with two commercial firms as a for-profit organization to
                                       operate and maintain the hovercraft for the Corporation. We examined the entire
                                       transaction and reported several concerns. Although the Corporation qualified as an
                                       eligible donee for the surplus hovercraft, the other two parties to the Agreement are
                                       not eligible donees of Federal property. Yet, two-thirds of the profits generated from
                                       the hovercraft operations were assigned to the non-eligible donees. The FPMR
                                       indicates that donated property is not intended for gaining a profit. Accordingly, our
                                       report recommended that GSA reassess the Agreement to ensure conformance to the
                                       FPMR.

                                       We also determined that only one of the hovercraft had been employed for its
                                       intended purposes; oil spill response, air-sea rescue efforts, delivery of goods and
                                       mail, and ferry services. The remaining 13 have been employed as demonstration
                                       vessels, to promote hovercraft as a viable transportation alternative. While this use
                                       conforms with intended purposes stated in the conditional transfer documents
                                       executed by the Corporation and the SASP, we questioned that prolonged use of
                                       hovercraft for demonstrations fulfills the terms of utilization restrictions imposed on
                                       the donated property. The FPMR requires that, if the donated property has not been
                                       put to use within one year of the signed conditional transfer document, the property
                                       must be returned to the SASP for transfer to another eligible donee or back to the
                                       Federal Government. Recognizing the Corporation's attempt to develop a hovercraft
                                       industry, the OIG recommended that the conditional transfer document be revised to
                                       more accurately reflect the long-term intended use of the vessels so that utilization
                                       compliance restrictions can be enforced.

                                       Finally, our September 5, 1996 report points out the need for more rigorous
                                       inspections and control over parts and equipment removed from non-operational
                                       hovercraft as well as excess surplus equipment and parts transferred to the
                                       Corporation by the Department of Defense. The cannibalized hovercraft had a total
                                       acquisition value of $48 million, while the surplus parts donated by the Department
                                       of Defense had an estimated acquisition value of $14 million.

                                       In response to the report, GSA management stated that the SASP has been requested
                                       to review the intended uses of the vessels, and if necessary, take action to ensure that
                                       the vessels are placed into approved use or returned by the donee.

                                       The audit is still in the resolution process.


                                       Sale of U.S. Custom House
                                       The United States Custom House, originally built in 1847, became Boston's first
                                       skyscraper with the completion of a tower in 1915. It was used as a Federal office
                                       building until 1986 when the GSA declared the historic building to be surplus
                                       property. The following year, the City of Boston (the City) purchased the building
                                       from GSA for $11 million, paying $1.1 million at closing and obtaining a 10 year
                                       mortgage at 11 percent interest from GSA. The mortgage required quarterly payments



18 Semiannual Report To The Congress
views of G                                  rams

of interest only for the first 5 years, with quarterly payments of interest and principal to
be made over the final 5 years of the note. In April 1991, after making
13 quarterly interest payments, the City defaulted on the loan.

After prolonged negotiations, GSA and the City agreed in May 1994 to restructure the
debt. The agreement provided the City very favorable terms compared to the original
mortgage. The new agreement called for periodic payments of interest at 4 percent
over a 30 year term, with a lump sum payment of $9.9 million in principal plus
$3.54 million in unpaid interest from the original debt instrument to be paid after
30 years. Additionally, the new agreement forgave $361,010 for penalty payments
assessed on default of the original note. In 1995, the City proposed to settle the debt for
a cash buyout, and in January 1996, GSA and the City agreed to close out the debt for
just over $6 million.

We performed an audit to determine whether the unusual circumstances underlying the
original sale of the building to the City and the related refinancing of debt were
accomplished within applicable laws and regulations. The audit included reviews of
sale documentation, Federal laws and regulations, and Agency policies and procedures
that govern the disposal of real property. Debt restructuring activities were examined
and discussed with the GSA Office of General Counsel.

Our audit noted that the sale was a departure from the Agency's general policy of
selling surplus real property for cash. GSA had assumed the role of creditor and
accepted a minimum down payment, in order to accommodate the City. As a result of
this non-standard method of sale, GSA subsequently bore the administrative cost of the
City's default and the ultimate restructuring of the debt.

Additionally, our report questioned GSA's waiver of the $361,01 0 for penalty
payments, and its compromise of the original debt by non-assessment of additional
interest on the previously unpaid interest of $3.54 million and of the $9.9 million
included in the restructuring agreement. The report pointed out that because GSA
compromised more than $100,000 in debt, the Agency exceeded its legal authority
permitted by the Federal Claims Collection Act. This Act limits an agency's right to
compromise debts to $100,000. The authority to compromise interest, penalties, and
administrative cost in excess of this limit rests solely with the Department of Justice.

The circumstances of this sale raised our concerns about the adequacy of GSA policies
and management controls over the disposal of surplus real property. We recommended
that GSA refine its policies and procedures for the sale of surplus property where credit
is extended; and cautioned that GSA should not participate as a lender institution in the
disposal of real property. Our report also recommended that, given that GSA exceeded
its legal authority to compromise debts owed the United States when restructuring the
City's debt, this was a reportable matter under the Federal Managers' Financial
Integrity Act.

GSA management did not agree with the findings and recommendations presented in
our report, maintaining that our conclusions were based on an incorrect interpretation
of the statutory and regulatory framework governing the disposal of real property.
Citing the Federal Property and Administrative Services Act of 1949, management
contended that the GSA Administrator has the authority to sell surplus real property on


                                                              Office of Inspector General 19
                                       views of GSA Programs

                                       credit terms, and to administer and manage the credit as deemed to be in the best
                                       interest of the United States.

                                       The OIG considered the Agency's response in detail, but made no changes to the
                                       audit findings and recommendations as presented in the report. The July 15, 1996
                                       audit report is still in the resolution process.


                                       Resource Management and Utilization
                                       During this semiannual period, the OIG performed two reviews addressing areas
                                       pertinent to the judicious management and utilization of resources within GSA. This
                                       is a primary consideration for all agencies at this time because of the reductions in
                                       personnel and funding levels. These reports pointed out the importance of processing
                                       cash receipts promptly, and assuring open obligations are validated efficiently.

                                       •   Cash Deposits to the Treasury
                                           In FY 1995, Federal agencies paid more than $1 billion for GSA services,
                                           primarily for rent and outlease collections, automatic data processing and
                                           telephone charges, and utility and reimbursable work authorizations. These
                                           payments, which are considered cash deposits, were in the form of currency,
                                           commercial and Treasury checks, wire transfers, and credit card transactions.
                                           Prompt processing of receipts is one of GSA's primary goals for effective cash
                                           management.

                                           We found that deposit processing procedures provide adequate internal controls
                                           to reasonably ensure the safeguarding of cash deposits, and that checks are being
                                           deposited with Treasury promptly. However, 97 percent of the over $1 billion in
                                           payments to GSA was made via Treasury check rather than the much more
                                           timely and less costly electronic funds transfer process. With GSA's
                                           encouragement, agencies are increasing the number of electronic payments. GSA
                                           is also successfully promoting Treasury's electronic payment process, the
                                           Vendor Express Program, despite the private sector's apparent reluctance to
                                           use it.

                                           The April 2, 1996 report contained no recommendations.

                                           Validating Open Obligations
                                           By law, as part of the Agency's annual appropriation request, the Administrator
                                           of GSA is required to certify the validity of recorded obligations for payment of
                                           goods, services, and other transactions. The Administrator bases his certification
                                           on reviews, coordinated by GSA's Finance Divisions, of unpaid obligations as of
                                           March and June of each year. GSA's program offices determine whether
                                           individual transactions are valid or should be eliminated from the Agency's
                                           financial records, and provide validated listings to update the accounting records.

                                           We concluded that significant efficiencies can be realized by streamlining the
                                           validation process, as follows:

                                           • Eliminate the March validation review since very few items are being cleared;
                                             and



20 Semiannual Report To The Congress
Reviews of GSA Programs

       • Use statistical sampling techniques to substantially reduce the number of
         items to be validated in June.

       Our review also revealed that GSA has significantly overestimated unpaid real
       estate tax obligations for leased commercial property over the last few years
       because of its accrual policy. As a result, the tax obligations were overstated by
       $4.9 million from FY 1990 through 1994. To free up millions of dollars that are
       earmarked for anticipated tax purposes, we recommended that GSA officials
       revise the procedures for estimating real estate taxes so accruals more closely
       match tax liabilities.

       The Acting Regional Administrator concurred with our September 6, 1996 report
       recommendations. The audit is still in the resolution process.


   Vehicle Sales Support Contractors
   GSA recently began disposing of used Government vehicles through commercial
   auction houses. During FY 1995, contractors in one region sold about 4,700 vehicles
   at 43 auctions. Auction proceeds exceeded $25 million, with overall selling expenses
   amounting to about $1.3 million. The contractors are responsible for picking up
   vehicles, recommending repairs, running auction sales, collecting proceeds and
   wiring them to GSA, issuing transfer documents, and providing sales documentation.

   Our review showed that management controls relating to vehicle sales support
   contractors are generally sufficient. However, more consistent and complete
   documentation of inspections, estimates, and authorizations could help to ensure
   contractor compliance in all phases of the sales process. Additionally, sale logs do not
   identify persons purchasing vehicles, thereby losing accountability over title
   certificates that are given to buyers of Government vehicles.

   Our August 29, 1996 report recommended that regional management:

       Develop a standardized set of procedures covering contracted vehicle sales; and

       Instruct GSA personnel to maintain accountability over title certificates.

   The Regional Administrator agreed with the recommendations in our report and
   initiated action. The report is still in the resolution process.




                                                               Office of Inspector General 21
                                       Prevention Activities

                                       In addition to detecting problems in GSA operations, the OIG is responsible for
                                       initiating actions to prevent fraud, waste, and abuse and to promote economy and
                                       efficiency.

                                       The GIG's preaward audit program provides information to contracting officers for
Significant Preaward                   use in negotiating contracts. The predecisional, advisory nature of preaward audits
Audits                                 distinguishes them from other audits. This program provides vital and current
                                       information to contracting officers, enabling them to significantly improve the
                                       Government's negotiating position and realize millions of dollars in savings on
                                       negotiated contracts. This period, the GIG performed preaward audits of
                                       104 contracts with an estimated value of over $2.1 billion. The audit reports contained
                                       over $285 million in financial recommendations.


                                       Multiple Award Schedule Contracts
                                       This period, three of the more significant MAS contracts we audited had projected
                                       Governmentwide sales totaling $787 million. Based on the audit findings, we
                                       recommended that over $168 million in funds be put to better use.

                                       The GIG evaluated discount schedule and marketing data submitted in response to
                                       GSA's solicitations for the purchase of office systems furniture and communications
                                       equipment. The audits disclosed common problems in the proposals. Companies were
                                       offering commercial customers better pricing than offered to GSA. The companies
                                       either did not disclose the full extent of higher discounts granted to other customers or
                                       did not provide adequate justification for not offering comparable discounts to GSA,
                                       even though GSA buys in similar quantities.


                                       Other Contracts
                                       During this period, we also performed audits on other contracts. Three of the more
                                       significant audits contained proposed prices totaling $3.6 million, and recommended
                                       adjustments of more than $3.3 million. In an audit of a claim for increased costs due
                                       to Government caused delays in the repair and upgrade of building energy systems,
                                       we advised the contracting officer that the contractor submitted overstated claims for
                                       labor, equipment, field office, and overhead costs. In an audit of a claim for building
                                       renovations, we advised the contracting officer that the contractor submitted
                                       overstated claims for management and supervision labor, labor inefficiencies, and
                                       proposed overhead costs. Finally, in an audit of a claim for increased costs resulting
                                       from lead abatement efforts, we advised the contracting officer that the contractor had
                                       overstated home office overhead costs and could not support its claim for lost
                                       productivity and supervision costs.


Integrity Awareness                    The GIG presents Integrity Awareness Briefings nationwide to educate GSA
                                       employees on their responsibilities for the prevention of fraud and abuse, and to
                                       reinforce employees' roles in helping to ensure the integrity of Agency operations.

                                       This period we presented 21 briefings attended by 704 regional employees. These
                                       briefings explain the statutory mission of the GIG and the methods available for
                                       reporting suspected instances of wrongdoing. In addition, through case studies and




22 Semiannual Report To The Congress
                       vention Activities

                 slides, the briefings make GSA employees aware of actual instances of fraud in GSA
                 and other Federal agencies and thus help to prevent their recurrence.

                 The OIG Hotline provides an avenue for concerned employees and other concerned
Hotline          citizens to report suspected wrongdoing. Hotline posters located in GSA-controlled
                 buildings, as well as brochures, encourage employees to use the Hotline.

                 During this reporting period, we received 2,473 Hotline calls and letters. Of these,
                 94 complaints warranted further GSA action, 19 warranted other Agency action, and
                 2,360 did not warrant action.

                 The OIG's program for reviewing leases prior to award provided frontend assurance
Advisory Lease   that GSA was adhering to regulations and procedures before awarding selected leases
Reviews          exceeding established thresholds. These reviews, although advisory in nature,
                 promoted oppOltunities for economy and efficiency in the leasing area, and the
                 avoidance of problems before they occur.

                 This period, GSA initiated "Can't Beat GSA Leasing" to improve the responsiveness
                 of GSA's $2.3 billion leasing program. As a result, the OIG and the GSA
                 Administrator agreed to discontinue specific advisory lease reviews so that GSA
                 would have a free hand in reinventing the leasing process. The OIG will, of course,
                 continue to share its expertise in the leasing area with GSA management as the
                 reinvention process progresses.

                 The OIG performs independent reviews of implementation actions, on a selected
Implementation   basis, to ensure that management's corrective actions in response to OIG
Reviews          recommendations are being accomplished according to established milestones. This
                 period, the OIG performed six implementation reviews. In all six of the reviews, the
                 recommendations were fully implemented.




                                                                            Office of Inspector General 23
                   Review of Legislation and Regulations

                                       The Inspector General Act of 1978 requires the GIG to review existing and proposed
                                       legislation and regulations to determine their effect on the economy and efficiency of
                                       the Agency's programs and operations and on the prevention and detection offraud
                                       and mismanagement.

                                       During this period, the OIG reviewed 239 legislative matters and 15 proposed
                                       regulations and directives. The OIG provided significant comments on the following
                                       legislative item:

                                       •   S. 1724, the Freedomfrom Government Competition Act. We agreed with the
                                           concept of transferring functions currently performed by the Government to
                                           private sector contractors when it is cost-effective and feasible from a policy
                                           standpoint. However, we expressed our concerns that the proposed legislation
                                           would make a "sea change" in the manner in which Federal agencies operate,
                                           without any provision for adequate study regarding cost-effectiveness or
                                           continuity of Government policy and agency operations. We pointed out that
                                           merely transferring a function to the private sector does not make the
                                           performance of that function free of charge to the Government. To the contrary,
                                           performance of many currently Governmental functions by private interests may
                                           well be more expensive to the Government than maintaining these functions
                                           within the Government. We also noted that the legislation fails to consider that
                                           the Government has, over time, developed significant expertise in performing
                                           the functions necessary to its operations. If these functions were contracted out,
                                           there would necessarily be a significant "learning curve" each time a contractor
                                           performed a function for the Government.

                                       In addition, the OIG provided significant comments on the following regulatory
                                       items:

                                       •   General Services Acquisition Regulation (GSAR) Interim Rule Implementing the
                                           Truth in Negotiations Act (TINA) and Commercial Items Provisions of the
                                           Federal Acquisition Streamlining Act (FASA) and the Federal Acquisition
                                           Reform Act (FARA). This revised interim rule would implement FASA and
                                           FARA within GSA's MAS program. As we commented in earlier versions of this
                                           interim GSAR, we supported the Agency's revisions to the information
                                           disclosure requirements as allowing flexibility in responding to MAS
                                           requirements. We also expressed strong support for the Agency's retention of the
                                           Most Favored Customer pricing policy. However, we also expressed our
                                           continuing concerns that GSA's restrictions on audit authority over pricing
                                           disclosures on MAS contracts was not mandated by law nor in keeping with
                                           standard commercial practice. We also pointed out that the audit scheme
                                           developed by GSA would likely increase the audit frequency of contractors and
                                           escalate routine MAS contract audits, unnecessarily, into fraud investigations.
                                           We further urged the Agency to retain the "current, accurate, and complete"
                                           standard used to judge the quality of information submitted, as well as the
                                           requirement that contractors certify that this standard has been achieved. Finally,
                                           we pointed out some discrepancies in the proposed definitions for "discounts"
                                           and "concessions."




24 Semiannual Report To The Congress
Review of Legislation and Regulations

          Federal Acquisition Regulation (FAR) Case 96-308, Commercially Available Off
          the-Shelf Items, Advance Notice of Proposed Rulemaking. We provided comments
          to the FAR Council on FAR Case 96-308 which would implement section 4203 of
          the FARA. This statutory section would require the FAR Council to compile a list
          of provisions of law, which represent Government-unique requirements, from
          which contracts for commercially available off-the-shelf items will be exempt. We
          commented that it would be inappropriate to include TINA in the list of
          inapplicable laws. Specifically, we noted that TINA provides certain rights and
          procedures relating to information during contract negotiations for certain
          excepted commercial item contracts. For example, we noted that TINA provides
          affirmative authority for contracting officials to require information other than cost
          or pricing data in order to determine price reasonableness on such contracts, and
          that this authority enables the GSA to negotiate fair and reasonable prices for
          items under the MAS program. We also suggested several technical revisions to
          the proposed list of inapplicable statutes.

          FAR Case 95-020, Allowability of Legal Defense Costs for Certain False Claims
          Act Actions. We provided comments to the FAR Council on proposed FAR Case
          95-020 which would amend the regulatory provisions relating to the allowability
          of legal defense costs in actions brought under the qui tam provisions of the civil
          False Claims Act. We noted our belief that the FAR currently provides that legal
          defense costs in declined qui tam actions, like other civil False Claims Act actions,
          are generally unallowable unless otherwise provided in a settlement agreement
          entered into by a defendant company and the U.S. Department of Justice.
          Therefore, we expressed our belief that the proposed FAR revisions were
          unnecessary.




                                                                   Office of Inspector General 25
          5 tistical Summary of DIG Accomplishmen

                                       Audit Reports Issued
                                       The OIG issued 186 audit reports, including 4 audits performed for the OIG by
                                       another agency. The 186 reports contained financial recommendations totaling
                                       $297,652,433, including $285,849,766 in recommendations that funds be put to better
                                       use and $11,802,667 in questioned costs. Due to GSA's mission of negotiating
                                       contracts for Governmentwide supplies and services, most of the recommended
                                       savings that funds be put to better use would bc applicable to other Fedcral agencies.


                                       Management Decisions on Audit Reports
                                       Table 1 summarizes the status of the universe of audits requiring management
                                       decisions during this period, as well as the status of those audits as of September 30,
                                       1996. Twenty one reports more than 6 months old were awaiting management
                                       decisions as of September 30, 1996; all of them were preaward audits which are not
                                       subject to the 6 month management decision requirement. Table 1 does not include
                                       two reports issued to another agency this period and 23 reports excluded from the
                                       management decision process because they pertain to ongoing investigations.




                             Table 1. Management Decisions on OIG Audits
                                                                                 Reports with                   Total
                                                               No. of              Financial                  Financial
                                                              Reports         Recommendations            Recommendations

  For which no management decision
  had been made as of 4/1/96
     Less than 6 months old                                       82                    66                   $138,358,065
     More than 6 months old                                       30                    28                     10,067,826
  Reports issued this period                                     183                   108                    296,754,041
  TOTAL                                                         295                    202                   $445,179,932
  For which a management decision
  was made during the reporting
  period
      Issued prior periods                                        91                    75                    $141,377,115
      Issued current period                                      118                    63                     117,604,601
  TOTAL                                                         209                    138                    $258,981,716
  For which no management decision
  had been made as of 9/30/96
     Less than 6 months old                                       65                    45                    $179,149,440
      More than 6 months old                                      21                    19                       7,048,776
  TOTAL                                                           86                    64                   $186,198,216




26 Semiannual Report To The Congress
        S tistical Summa of OIG Accomplishmen

                                       Management Decisions on Audit Reports With Financial
                                       Recommendations
                                       Tables 2 and 3 present the audits identified in Table 1 as containing financial
                                       recommendations by category (funds to be put to better use or questioned costs). Two
                                       reports contained recommendations that funds be put to better use as well as
                                       questioned costs, and these reports are therefore included in both tables 2 and 3.



                        Table 2. Management Decisions on OIG Audits with
                        Recommendations that Funds be Put to Better Use
                                                                        No. of                          Financial
                                                                       Reports                      Recommendations
For which no management decision had
been made as of 4/1/96
    Less than 6 months old                                                 59                          $136,983,648
    More than 6 months old                                                  28                            10,067,826
Reports issued this period                                                 77                           284,951,374
TOTAL                                                                     164                          $432,002,848
For which a management decision was
made during the reporting period
    Recommendations agreed to by
    management based on proposed
    • management action                                                                                $249,026,407
    • legislative action
    Recommendations not agreed to
    by management                                                                                       _l-,-~~~_~Z
TOTAL                                                                     111                          $251,313,074
For which no management decision had
been made as of 9/30/96
    Less than 6 months old                                                  34                         $173,640,998
    More than 6 months old                                                  19                             7,048,776
TOTAL                                                                       53                         $180,689,774




                                                                                                 Office of Inspector General 27
          Statistical Summary of OIG Accomplishments


                                  Table 3. Management Decisions on OIG
                                       Audits with Questioned Costs
                                                           No. of                Questioued       Unsupported
                                                          Reports                  Costs             Costs
  For which no management decision
  had been made as of 4/1/96
      Less than 6 months old                                   8                $ 1,374,417         $-
      More than 6 months old                                   o                       o
  Reports issued this period                                  32                 11,802,667
  TOTAL                                                       40                $13,177,084         $-
  For which a management decision
  was made during the reporting
  period
      Disallowed costs                                                          $ 7,969,880   *     $-
      Costs not disallowed                                                          253,689
  TOTAL                                                       29                $ 8,223,569 **      $-
  For which no management decision
  had been made as of 9/30/96
      Less than 6 months old                                  11                $ 5,508,442         $ -
                                                                                                    ,
      More than 6 months old                                   o                       o
  TOTAL                                                       11                $ 5,508,442         $-
  * $910,012 of this amount was recovered in civil settlements, as reported in Table 5.
  ** Includes $554,927 that management decided to seek that exceeded recommended amounts.




28 Semiannual Report To The Congress
Statistical Summary of OIG Accomplishments

                        Investigative Workload
                        The aIG opened 186 investigative cases and closed 230 cases during this period. In
                        addition, the aIG received and evaluated 101 complaints and allegations from sources
                        other than the Hotline that involved GSA employees and programs. Based upon our
                        analyses of these complaints and allegations, aIG investigations were not warranted.


                        Referrals
                        The aIG makes criminal referrals to the Department of Justice or other authorities for
                        prosecutive consideration and civil referrals to the Civil Division of the Department
                        of Justice or U.S. Attorneys for litigative consideration. The aIG also makes
                        administrative referrals to GSA officials on certain cases disclosing wrongdoing on
                        the part of GSA employees, contractors, or private individuals doing business with the
                        Government.


                      Table 4. Summary of OIG Referrals

   Type of Referral                               Cases                                 Subjects
   Criminal                                         26                                      46
   Civil                                             5                                       6
   Administrative                                  108                                     200
   TOTAL                                           139                                     252

                        In addition, the aIG made 11 referrals to other Federal activities for further
                        investigation or other action and 67 referrals to GSA officials for informational
                        purposes only.


                        Actions on DIG Referrals
                        Based on these and prior referrals, 18 cases (33 subjects) were accepted for criminal
                        prosecution and 2 cases (2 subjects) were accepted for civil litigation. Criminal cases
                        originating from aIG referrals resulted in 17 indictments/informations and
                        20 successful prosecutions. aIG civil referrals resulted in 2 cases being accepted for
                        civil action and 10 case settlements. Based on aIG administrative referrals,
                        management debarred 27 contractors, suspended 72 contractors, and took 8 personnel
                        actions against employees.




                                                                                    Office of Inspector General 29
          5 tistical Summary of OIG Accomplishments

                                         Monetary Results
                                         Table 5 presents the amounts of fines, penalties, settlements, judgments, and
                                         restitutions· payable to the U.S. Government as a result of criminal and civil actions
                                         arising from OIG referrals.

                                         In addition, the OIG identified for recovery $830,945 in money and/or property
                                         during the course of its investigations.



                                    Table 5. Criminal and Civil Recoveries

                                                               Criminal                                   Civil
              Fines and Penalties                               $120,785                             $
              Settlements or Judgments                                                                12,156,040*
              Restitutions                                         12,575
                                                                 -~"--




              TOTAL                                             $133,360                            $12,156,040

  * This amount includes $910,012 reportable pursuant to section 5(a)(8) of the Inspector General Act as management
  decisions to disallow costs. See Table 3.




30 Semiannual Report To The Congress
APPENDICES
      Appendix /- Significant Audits From                                                          ·or Reports

Under the Agency's audit management decision process,             contained two recommendations; neither has been
GSA's Office of Management Services and Human Resources,          implemented.
Office of Management Controls and Evaluation, is responsible
for tracking implementation of audit recommendations after a      The recommendations include promulgating policies and
management decision has been reached. That office furnished       guidelines covering the clearance process and ensuring
the following status information.                                 compliance with Public Law 101-647. They are scheduled for
                                                                  completion by December 15, 1996.
Seventeen audits highlighted in prior Reports to the Congress
have not yet been fully implemented; all are being implemented    Aircraft Management
in accordance with currently established milestones.              Period First Reported: October 1,1995 to March 31, 1996
                                                                  The review identified opportunities for improvement in GSA's
Purchase of Telecommunications Services                           program for assisting civilian agencies with the management
Period First Reported: October 1, 1995 to March 31, 1996          and cost effectiveness of their aircraft operations. The report
The review advised management of opportunities to better          contained five recommendations; none have been implemented.
serve telecommunications customers. The report contained six
recommendations; one has been implemented.                        Two of the recommendations involve obtaining the necessary
                                                                  resources to accomplish program initiatives. They are
The recommendations involve reviewing both the Purchase of        scheduled for completion by April 15, ] 997. Another
Telecommunications Services (POTS) and MAS schedule               recommendation involves the development of a logistics
programs, calculating a new surcharge rate based on 5-year        system; it is scheduled for completion by December 15, 1996.
historical sales, and ensuring that training is provided on the   One recommendation concerns the identification of aircraft data
POTS Management Information System. They are scheduled            necessary for making informed decisions and is scheduled for
for completion by various dates between December ] 5, 1996        completion by October ]5, 1997. The final recommendation
and June 15, 1997.                                                consists of ensuring the reliance of data. It is scheduled for
                                                                  completion by October 15, 1996.

Stock Program Management Information                              Value Engineering
System                                                            Period First Reported: October 1,1995 to March 31,1996
Period First Reported: October 1, 1995 to March 31,1996
                                                                  The review identified opportunities for more effective usage of
The review identified opportunities for improvement in the        value engineering in GSA. The report contained one
accuracy and reliability of information provided to stock         recommendation; it has not yet been implemented.
program managers. The report contained four recommen-
dations; none have been implemented.                              The recommendation involves GSA's Office of Acquisition
                                                                  Policy assuming a leadership role in GSA's use of value
The recommendations include improvements in the accuracy          engineering. It is scheduled for completion by April IS, 1997.
and reliability of data, the evaluation of computer programs,
and the continued development of an information system. They      Federal Telecommunications Service -
are scheduled for completion by various dates between
March IS and November 15, 1997.                                   Verification of Billings
                                                                  Period First Reported: October 1, 1995 to March 31, 1996
Background Checks of Child Care Center                            The review focused on the verification of usage and related
                                                                  charges. The report contained three recommendations; one has
Employees                                                         been implemented.
Period First Reported: October 1, 1995 to March 31, 1996
The review focused on GSA's practices over criminal history       One recommendation includes the implementation of draft
background checks for child care center employees. The report     regulations for performing verifications of the call detail report.




                                                                                                      OtIice of Inspector General 33
      Appendix /- Significant Audits From Prior Reports

It is scheduled for completion by April 15, 1997. Another             involving an evaluation of the method used to establish rent for
recommendation requires revision to the draft regulations to          special purpose space, is scheduled for completion by
recognize shared responsibility among GSA managers for                October 15, 1997.
verifying the validity and purpose of long distance calls. It is to
be completed by January 15, 1997.                                     GSA's Fine Arts Program
                                                                      Period First Reported: October ], ]994 to March 31, 1995
Federal Telecommunications Service -                                  The review focused on GSA's oversight of fine art located in
Telecommunications Charges                                            Federal and non-Federal institutions. The report contained five
Period First Reported: October 1, 1995 to March 31, 1996              recommendations; four have been implemented.
The review focused on disputed service order charges with one
vendor and the procedures in place to handle such disputes.           The remaining recommendation involves developing policy for
The report contained five recommendations; four have been             the utilization of fine art in Federally controlled space and its
imp lemented.                                                         acceptance and disposal. It is scheduled for completion by
                                                                      January 15, 1997.
The remaining recommendation involves the establishment of a
process for settling backlogged disputed charges. It is scheduled     Reimbursable Work Authorizations
for completion by November 15, 1996.                                  Period First Reported: October 1, ]994 to March 31, ]995
                                                                      The review identified opportunities for improvement in GSA's
Buildings Operations and Maintenance                                  recovery of indirect costs related to the performance of
Services                                                              reimbursable work aut~orizations (RW As). The report
Period First Reported: April 1, ]995 to September 30, 1995            contained two recommendations; one has been implemented.

The review identified opportunities for improvement in GSA's          The remaining recommendation involves the development of
process for performing space alterations. The report contained        overhead rates to be applied to RW As. It is scheduled for
six recommendations; one has been implemented.                        completion by October 15, 1996.

The recommendations include the development of expedited
procedures and simplified forms, and improvements in project
                                                                      Real Estate Management
oversight and communication with customer agencies. They are          Period First Reported: April 1, 1994 to September 30, 1994
scheduled for completion by December 15, 1996.                        The review found that repair and alteration projects in one
                                                                      region could be more comprehensively planned and databases
Construction Projects                                                 more accurately maintained. The report contained ten
                                                                      recommendations; nine have been implemented.
Period First Reported: April 1, 1995 to September 30, ]995
The report identified opportunities for improvement in the            The one remaining recommendation, involving the validation of
bidding and contracting practices of major GSA construction           work items listed in the database, is scheduled for completion
projects. The report contained eight recommendations; five            by August 31, 1997.
have been implemented.

One of the remaining recommendations involves the
                                                                      Maintenance Control Center Operations
development of policy and guidance regarding cash flow                Period First Reported: April 1, 1994 to September 30, 1994
analysis and is scheduled for completion by October 15, 1996.         The review identified opportunities for improvement in the
Another recommendation involves the development of policy             processing of invoices and the management of maintenance and
and guidance relating to source selection. It is scheduled for        repair data. The report contained five recommendations; one
completion by January 15, 1997. The final recommendation,             has been implemented.




34 Semiannual Report To The Congress
      Appen                    I - Significant Audits From Prior Reports

Two of the remaining recommendations require revising a GSA          it in future proposals. Completion has been revised and is now
order to permit use of credit cards for routine automotive           scheduled by January 15, 1997.
maintenance and repairs and streamlining the operational
structure. They are scheduled for completion by October 15,
1996. Another recommendation calls for establishing
                                                                     Employee Benefit Programs
alternative payment procedures and is due for implementation         Period First Reported: October 1,1992 to March 31, 1993
by April 15, 1997. The final recommendation involves                 This review found that the processing of health benefit
transferring service information from customer agencies and is       insurance transactions needed improvement. The report
scheduled for implementation by December 15, 1996.                   contained two recommendations; one has been implemented.

Federal Protective Service                                           The remaining recommendation required a determination
Period First Reported: October 1, 1993 to March 31, 1994             whether it would be cost beneficial to recover health benefit
The review found that GSA needed to strengthen its control           insurance contributions for prior years and to take appropriate
over firearms and improve internal security. The report              action based on that determination. While all pertinent actions
contained 14 recommendations; 13 have been implemented.              have been taken on this recommendation, it remains open until
                                                                     all recovery actions are completed.
The remaining recommendation involves making improve-
ments to alarm systems. It is scheduled for completion by
October 15, 1996.
                                                                     Contract Workload Management
                                                                     Period First Reported: April 1, 1992 to September 30, 1992
Business Allocation                                                  This review revealed the need to develop a strategy for
Period First Reported: October 1,1993 to March 31,1994               addressing procurement workload concerns. The report
                                                                     contained one recommendation; it has not yet been
The review focused on GSA's administration of the 60 percent
and 40 percent anticipated business allocation between two           implemented.
Federal Telecommunications Service contractors. The report
contained two recommendations; one has been implemented.             This recommendation involves establishing a working group to
                                                                     develop a system for addressing identified issues and to give
The remaining recommendation involves GSA's determination            attention to the MAS program concerns. It is scheduled for
of its future role in contractor revenue allocation and indicating   completion by November 15, 1996.




                                                                                                       Office of Inspector General 35
                        Appendix II . . . Audit Report Register
                                                                                                        Financial
                                                                                             ~~~~~
                                                                                                  Recommendations
                                                                                                      -            .~-~-~~




                                                                                             Funds To           Questioned
Date of       Audit                                                                          Be Put To        (Unsupported)
Report        Number                                    Title                                Better Use           Costs


              (Note: Due to the pre-decisional nature of some audits, the financial
              recommendations pertaining to these reports are not listed in this Appendix)

PBS           INTERNAL AUDITS
04/19/96      A63021         Preaward Lease Review: Mercury Building, 1925 K Street,
                             NW, Washington, D.C., Lease Number GS-1IB-6030l

05128/96      A60642         Review of 1994 & 1995 Renewal Rental Costs, 6 World
                             Trade Center, Lease Number GS-02B-15370

06127/96      A62462         Postaward Lease Audit: 234 North Central, Phoenix, Arizona,                          $21,947
                             Pacific Rim Region

07/03/96      A63014         Audit of the Award of Contracts for Appraisal Services in the
                             National Capitol Region

07/15/96      A40322         Report on Audit of the Sale of United States Custom House to
                             the City of Boston and the Restructuring of Debt

07/16/96      A60636         Final Report on the Review of the Buffalo, New York
                             Buildings Management Field Office, Region 2

07/19/96      A60625         Postaward Lease Review: Internal Revenue Service, 1133
                             Avenue of the Americas, New York, New York 10036, Lease
                             Number GS-02B-22680

07126/96      A60920         Survey Report on the Assignment and Utilization of Space,
                             Mid-Atlantic Region

07/31/96      A60943         Limited Scope Audit of Vacant Space in the Mid-Atlantic
                             Region

08/16/96      A40350         Survey Report of Prospectus Repair and Alteration Projects,
                             General Services Administration, New England Region

08/22/96      A52l44         Audit of Utility Services Contracting Activities in Region 7
                             Public Buildings Service

08127/96      A62448         Audit of Background Checks on Contractor Personnel

09127/96      A61835         Audit of Implementation of PBS's Information Systems
                             Strategy

09/27/96      A61844         Review of PBS's Prompt Software Initiative

09127/96      A63307         Audit of Initial Space Alterations



36 Semiannual Report To The Congress
                    Appendix //- Audit Report Register
                                                                                                Financial
                                                                                           Recommendations
                                                                                    -~--~~~~       ....
                                                                                               --.-~   ~  =----c--=
                                                                                      Funds To           Questioned
Date of    Audit                                                                      Be Put To         (Unsupported)
Report     Number                              Title                                  Better Use            Costs


PBS        CONTRACT AUDITS
04/08/96   A61217     Preaward Audit of Small Business Administration 8(A)
                      Pricing Proposal: Tricomm, Incorporated, Solicitation
                      Number GS-04P-95-EXC-00ll

04123/96   A63622     Preaward Audit of Change Order Proposal: Truland Systems
                      Corporation, a Subcontractor to Turner Construction
                      Company, Contract Number GS-l1P9lAQC0060

04124/96   A60633     Preaward Audit of a Claim: Dawson Construction Company,
                      Inc., Contract Number GS-07P-9l-JXC-0117

04/25/96   A62446     Audit of Claim for Increased Costs: Standard Cabinet Works,
                      Inc., Subcontractor to Dawson Construction Co., Inc.,
                      Contract Number GS-07P-91-JXC-01l7

04/25/96   A63615     Audit of Claim for Increased Costs: M & M Welding &
                      Fabricators, Inc., Subcontractor to John J. Kirlin, Inc.,
                      Contract Number GS-IIP90MKC0129 "NEG"

04/29/96   A62481     Pre award Audit of Cost or Pricing Data: Digatron, Inc.,
                      Solicitation Number GS-08P-96-JAC-0502

05/06/96   A63628     Preaward Audit of Cost or Pricing Data: Permanent Solution
                      Industries, Inc., Solicitation Number RFP-GSllP96MJC0009

05/06/96   A63631     Pre award Audit of Cost or Pricing Data: Tex/AM
                      Construction Co., Inc., Solicitation Number GS-IIP95-
                      MQC0024 "Neg"

05/07/96   A53644     Audit of Claim for Increased Costs: Reliable Engineering
                      Services, Inc., a Subcontractor of the George Hyman
                      Construction Company, Contract Number GS-IIP92-
                      MKC0062

05/09/96   A62450     Audit of Claim for Increased Costs: Sun Construction and
                      Design Services, Inc., Subcontractor to Dawson Construction
                      Company, Inc., Contract Number GS-07P-91-JXC-0117

05/10/96   A61824     Preaward Audit of Cost or Pricing Data: The Helping Hand of
                      Goodwill Industries, Contract Number GS06P94GXCOI08

05/13/96   A61823     Preaward Audit of Cost or Pricing Data: The Helping Hand of
                      Goodwill Industries, Contract Number GS06P93GXC0032




                                                                                           Office of Inspector General 37
                       Appendix II -- Audit Report Regis r
                                                                                                         Financial
                                                                                                    Recommendations
                                                                                             --=------:c--         ------
                                                                                               Funds To          Questioned
Date of       Audit                                                                            Be Put To       (Unsupported)
Report        Number                                   Title                                   Better Use          Costs


05/13/96      A63627         Preaward Audit of Cost or Pricing Data: Landis & Gyr
                             Powers, Inc., Solicitation Number GSIIP95MQC0025

05/13/96      A63629         Preaward Audit of Architect and Engineering Services
                             Contract: The Temple Group, Inc., Solicitation Number
                             GS 1 IP95EGD0017

05114/96      A62464         Preaward Audit of a Claim: Natkin and Company, Contract
                             Number GS-07P-91-JXC-0 117

05/17/96      A6I533         Audit of Costs Incurred: Marino Construction Company, Inc.,
                             Option Number 4, Contract Number GS05P90GBCOIOl

05/17/96      A6I838         Preaward Audit of Proposed Overhead Rate: U.S.
                             Engineering Company, Contract Number GS06P94-
                             GYC0076(N)

OS/20/96      A62440         Preaward Audit of a Claim: Hibbitts Construction, Inc.,
                             Contract Number GS-07P-9J-JXC-00l0

OS/23/96      A62463         Preaward Audit of a Claim: DDC Interiors, Inc., Contract No.
                             GS-07P-91-JXC-Ol17

OS/23/96      A63626         Preaward Audit of Change Order Proposal: C. J. Coakley Co.,
                             Inc., a Subcontractor to Turner Construction Company,
                             Contract Number GSIIP91AQC0060

05124/96      A61535         Preaward Audit of Equitable Adjustment Claim: Herman B.
                             Taylor Construction Co., Contract Number GS-07P-92-HUC-
                             0017

06/03/96      A6I242         Preaward Audit of Small Business Administration 8(A)
                             Pricing Proposal: Intersteel, Inc., Solicitation Number GS-
                             04P-96-EWC-0022

06110/96      A60336         Preaward Audit of Architect and Engineering Services
                             Contract: Truex Cullins and Partners Architects, Solicitation
                             Number GS-02P-92-CUC-0025

06/13/96      A63634         Preaward Audit of Cost or Pricing Data: Wm. D. Euille &
                             Associates, Inc., Solicitation Number GS-IIP-96-MKC-001O

06119/96      A60341         Preaward Audit of Architect and Engineering Services
                             Contract: Ames & Whitaker Architects P.C., Solicitation
                             Number GS-OIP-95-BZD-00l4




38 Semiannual Report To The Congress
                     Appendix 11- Audit Report Register
                                                                                                Financial
                                                                                           Recommendations
                                                                                      Funds To          Questioned
Date of     Audit                                                                     Be Put To       (Unsupported)
Report      Number                               Title                                Better Use          Costs

06121/96    A60649     Pre award Audit of Architect and Engineering Services
                       Contract: Wank Adams Slavin Associates, Solicitation
                       Number GS-02P-96-DTC-00ll(N)

06/25/96    A61843     Preaward Audit of Cost or Pricing Data: The Helping Hand of
                       Goodwill Industries, Contract Number GS06P3GXC0021

06/27/96    A60637     Postaward Review of Real Estate Taxes: Internal Revenue                         $1,148,358
                       Service, 1133 Avenue of the Americas, New York, NY
                       10036, Lease Number GS-02B-22680

07/03/96    A61542     Preaward Audit of a Delay Claim: Blinderman Construction
                       Company, Inc., Contract Number GS05P92GBC0038

07/09/96    A62490     Preaward Audit of a Claim for Increased Costs: Rosendin
                       Electric, Inc., Subcontractor to The George Hyman
                       Construction Company, Contract Number GS-09P-93-KTC-
                       0034

07/1 0/96   A60650     Pre award Audit of Architect and Engineering Services
                       Contract: R.M. Kliment & Frances Halsband Architects,
                       Solicitation Number GS-02P-96-DTC-00ll(N)

07/12/96    A62496     Preaward Audit of Lease Escalation Proposal: One Waterfront
                       Plaza Partners, Lease Number GS-09B-89551

07/18/96    A60335     Preaward Audit of Cost or Pricing Data: Suffolk Construction
                       Company, Inc., Contract Number GS-OIP-90-BZC-0035,
                       Modification Number 356

07/18/96    A63637     Preaward Audit of Change Order Proposal: Citiroof
                       Corporation, Contract Number GS 11P94MKC0027

07/19/96    A60342     Preaward Audit of Cost or Pricing Proposal: Contracting
                       Ventures Inc., Contract Number GS-OlP-95-BZC-0027

07/22/96    A60653     Preaward Audit of Architect and Engineering Services
                       Contract: Severud Associates Consulting Engineers P.C.,
                       Solicitation Number GS-02P-96-DTC-00ll (N)

07122/96    A62491     Preaward Audit of a Claim for Increased Costs: Superior Tile
                       Company, Subcontractor to The George Hyman Construction
                       Company, Contract Number GS-09P-93-KTC-0034




                                                                                           Office of Inspector General 39
                       Appendix //- Audit Report Register
                                                                                                     Financial
                                                                                                Recommendations
                                                                                          --------"--------_... _--------_._---
                                                                                           Funds To          Questioned
Date of       Audit                                                                        Be Put To       (Unsupported)
Report        Number                                  Title                                Better Use          Costs


07/22/96      A62492         Preaward Audit of a Claim for Increased Costs: Cosco Fire
                             Protection, Inc., Subcontractor to The George Hyman
                             Construction Company, Contract Number GS-09P-93-KTC-
                             0034

07/26/96      A60654         Pre award Audit of a Claim-Assist to General Counsel Re:
                             Environmental Data Consultants, Inc., Contract Number GS-
                             02P-92-CUC-0003

07/26/96      A61851         Pre award Audit of Proposed Overhead Rate: National Fire
                             Suppression, Contract Number GS06P94GYC0076(N)

07/30/96      A60651         Preaward Audit of Architect and Engineering Services
                             Contract: Flack + Kurtz Consulting Engineers, Solicitation
                             Number GS-02P-96-DTC-00ll(N)

08/01196      A62498         Postaward Audit of Janitorial Services Contract: Rubicon        $37,297                $5,738
                             Programs, Inc., Contract Number GS-09P-96-KSC-000I

08/09/96      A61852         Preaward Audit of Proposed Overhead Rate: Ceco Concrete
                             Construction Company, Contract Number GS06P94-
                             GYC0076(N)

08/21196      A61544         Preaward Audit of a Claim: D. L. Woods Construction, Inc.,
                             Contract Number GS05P91GBC0057

08/29/96      A62495         Preaward Audit of a Claim for Increased Costs: Columbia
                             Fabricating Company, Inc., Subcontractor to The George
                             Hyman Construction Company, Contract Number GS-09P-
                             93-KTC-0034

08/29/96      A63640         Preaward Audit of Sole Source Contract: K-LO Construction,
                             Inc., Solicitation Number GS-IIP95MQC0039

09/06/96      A60662         Preaward Audit of a Claim: Historic Conservation and
                             Interpretation, Inc., Contract Number GS-02P-91-CUC-0069

09/06/96      A63643         Preaward Audit of Cost or Pricing Data: Design Management
                             Associates, Inc., Solicitation Number GS IlP96MMCOOlO

09/20/96      A61534         Preaward Audit of a Claim: Marino Construction Company,
                             Contract Number GS05P90GBCOlOl




40 Semiannual Report To The Congress
                     Appendix //-                           R
                                                                                             Financial
                                                                                        Recommendations
                                                                                   Funds To          Questioned
Date of     Audit                                                                  Be Put To       (Unsupported)
Report      Number                             Title                               Better Use          Costs

09120196    A62485     Preaward Audit of a Claim for Increased Costs: Schram
                       Construction Inc., Subcontractor to The George Hyman
                       Construction Company, Contract Number GS-09P-93-KTC-
                       0034

09120196    A62494     Preaward Audit of a Claim for Increased Costs: Aire Sheet
                       Metal Inc., Subcontractor to Schram Construction Inc.,
                       Contract Number GS-09P-93-KTC-0034

09124/96    A61254     Audit of Final Invoice: MManTec, Incorporated, Contract
                       Number GS-04P-91-EWC-0055

09126/96    A62500     Preaward Audit of a Claim for Increased Costs: Rollie R.
                       French, Inc., Subcontractor to The George Hyman
                       Construction Company, Contract Number GS-09P-93-KTC-
                       0034


FSS         INTERNAL AUDITS
04/24/96    A61831     Advisory Review of FSS' Initiative for Next-Day Desktop
                       Delivery of Office Supplies

04/26/96    A51562     Audit of Customer Supply Center Operations, Great Lakes
                       Region

06/28/96    A61517     Audit of Fleet Management Centers

0711 0/96   A61527     Review of the Travel Management Center Operated by
                       Omega World Travel Under Contract No. GS-06F-KF92006

08/08/96    A61513     Audit of Chicago Fleet Management Center Operations

08129196    A52172     Management Control Review of Receiving and Export
                       Operations at the Southwestern Distribution Center

08129/96    A62431     Audit of Controls Over Vehicle Sales Support Contractors,
                       Pacific Rim Region

09/04/96    A62458     Interim Advisory Report on the Federal Operations Review
                       Model Analysis of the Federal Supply Service, Supplyl
                       Procurement Business Line

09/05/96    A53037     Review of the Transfer and Donation of the Lighter Air
                       Cushion Amphibious Vehicle-30 (LACV-30)

09/27/96    A51816     Advisory Report on Benchmarking FSS's Customer Supply
                       Center Program to Similar Private Sector Programs


                                                                                        Office of Inspector General 41
                       Appendix //- Audit R ort Register
                                                                                                     Financial
                                                                                                Recommendations
                                                                                          --~.-.---------~-~----




                                                                                           Funds To          Questioned
Date of       Audit                                                                        Be Put To       (Unsupported)
Report        Number                                  Title                                Better Use          Costs


FSS           CONTRACT AUDITS
04/04/96      A60330         Postaward Audit of Multiple Award Schedule Contract:                              $71,202
                             Viasoft, Inc., Contract Number GSOOK92AGS5960

04/09/96      A60325         Preaward Audit of Multiple Award Schedule Contract:
                             Wright Line Inc., Solicitation Number 3FNS-95-G20l-B

04110/96      A31549         Postaward Audit of Multiple Award Schedule Contract: GF                        $3,180,632
                             Office Furniture, Ltd., Contract Number GS-OOF-07017 for
                             the Period December 27, 1988 Through September 30, 1991

04/10/96      A62426         Preaward Audit of Multiple Award Schedule Contract: Ricoh
                             Corporation, Solicitation Number GSC-KES-00066-N-08-09-
                             95

04111/96      A51551         Postaward Audit of Multiple Award Schedule Contract: Hill-                       $464,815
                             Rom Company, Contract Number GS-00F-8351A for the
                             Period February 25, 1992 Through October 31, 1995

04116/96      A51558        Price Adjustments on Multiple Award Schedule Contract:
                            Life Fitness, Inc., Contract Number GS-07F-6059A for the
                            Interim Period June 1, 1996 Through December 31, 1996

04122/96      A63625        Preaward Audit of Multiple Award Schedule Contract:
                            Hoover Containment, Inc., Solicitation Number 7FXG-M5-
                            96-5403-B

05/02/96      A62480         Preaward Audit of Multiple Award Schedule Contract:
                             Cambro Manufacturing Company, Solicitation Number
                             7FXG-Y8-95-7354-B

05/03/96      A60923        Preaward Audit of Multiple Award Schedule Contract:
                            lntermetro Industries Corporation, Solicitation Number
                            7FXG-Y8-95-7354-B

05/06/96      A62428        Preaward Audit of Multiple Award Schedule Contract:
                            Plantronics, Incorporated, Solicitation Number GSC-KES-
                            00066-N-08-09-95

05/07/96      A60638        Preaward Audit of Multiple Award Schedule Contract:
                            Cybex, Division of Lumex, Inc., Solicitation Number 7FXG-
                            J3-96-7802-B




42 Semiannual Report To The Congress
                     A endix //- Audit Report Register
                                                                                               Financial
                                                                                          Recommendations-_.--_.--_.-.------
                                                                                         ~----   ,-.---------------

                                                                                     Funds To          Questioned
Date of    Audit                                                                     Be Put To       (Unsupported)
Report     Number                               Title                                Better Use          Costs

05/07/96   A60641      Price Adjustments on Multiple A ward Schedule Contract:
                       Maxell Corporation of America, Contract Number GS-02F-
                       8810B for the Interim Period May 1, 1996 Through March 31,
                       1998

05/07/96   A61828      Preaward Audit of Multiple Award Schedule Contract: United
                       Industries, Inc., Solicitation Number 7FXG-J3-96-7802-B

05/08/96   A60635      Preaward Audit of Multiple Award Schedule Contract:
                       CenterCore Group, Inc., Solicitation Number 3FNS-95-G201-B

05/10/96   A60647      Limited Scope Postaward Audit of Multiple Award Schedule                                       $2,919
                       Contract: Cybex, Division of Lumex, Inc., Contract Number
                       GS-07F-6033A

05/10/96   A62478      Audit of Termination Settlement Proposal: TEEMS, Inc.,
                       Contract Number GS-07F-58620

05/17/96   A41843      Postaward Audit of Multiple Award Schedule Contract:                                     $513,884
                       Memorex Computer Supplies, Contract Number GS-02F-
                       6109A for the Period May 8, 1992 Through March 31, 1994

05117/96   A62461      Postaward Audit of Multiple Award Schedule Contract:
                       Deltec Electronics Corporation, Solicitation Number 7FXI-
                       R7-91-6109-B

OS/22/96   A50345      Postaward Audit of Multiple Award Schedule Contract: The                                 $248,318
                       Brewster Corporation, Contract Number GS-00F-5297 A for
                       the Interim Period May 1, 1991 Through April 30, 1995

OS/24/96   A60621      Postaward Audit of Multiple Award Schedule Contract: Ilford                              $194,030
                       Photo, Contract Number GS-00F-4462A

OS/24/96   A61538      Preaward Audit of Multiple Award Schedule Contract:
                       Hamilton Sorter Company, Inc., Solicitation Number 3FNS-
                       95-G201-B

OS/29/96   A10538      Postaward Audit of Multiple Award Schedule Contract:                                     $207,588
                       Sunshine Chemical Specialties, Inc., Contract Number GS-
                       10F-48545

OS/29/96   A 10539     Postaward Audit of Multiple Award Schedule Contract:                                       $27,045
                       Sunshine Chemical Specialties, Inc., Contract Number GS-
                       07F-13738




                                                                                                 Office of Inspector General 43
                                                        udit Report Register
                                                                                                    Financial
                                                                                               Recommendations
                                                                                                     -~"-------.--




                                                                                          Funds To          Questioned
Date of       Audit                                                                       Be Put To       (Unsupported)
Report        Number                                 Title                                Better Use          Costs


OS/29/96      AI0540        Postaward Audit of Multiple Award Schedule Contract:
                            Sunshine Chemical Specialties, Inc., Contract Number GS-
                            IOF-49527

OS/29/96      AI0541        Postaward Audit of Multiple Award Schedule Contract:                             $23,071
                            Sunshine Chemical Specialties, Inc., Contract Number GS-
                            lOF-48876

OS/29/96      A 10542       Postaward Audit of Multiple Award Schedule Contract:                             $45,175
                            Sunshine Chemical Specialties, Inc., Contract Number GS-
                            00F-87668

OS/29/96      A30955        Postaward Audit of Multiple Award Schedule Contract: New                        $253,594
                            Pig Corporation, Contract Number GS-IOF-48605 for the
                            Period May 11, 1988 Through March 31, 1991

OS/29/96      A61239        Preaward Audit of Multiple Award Schedule Contract:
                            Environments, Inc., Solicitation Number 7FXG-13-96-7802-B

05/30/96      A62126        Limited Scope Postaward Audit of Multiple Award Schedule
                            Contract: Body Masters Sports Industry, Inc., Contract
                            Number GS-07F-4747A

06/04/96      A40937        Postaward Audit of Multiple Award Schedule Contract:                             $33,370
                            In singer Machine Company, Contract Number GS-07F-
                            6300A for the Period October 1, 1992 Through April 28, 1994

06/13/96      A61845        Postaward Audit of Multiple Award Schedule Contract: Gray
                            Automotive Products Company, Contract Number GS-07F-
                            7075B for the Interim Period July 1, 1994 Through March 31,
                            1996

06/17/96      A60333        Preaward Audit of Multiple Award Schedule Contract: S & S
                            Worldwide, Solicitation Number 7FXG-13-96-7802-B

06/17/96      A60339        Preaward Audit of Multiple Award Schedule Contract:
                            Servolift Eastern Corporation, Solicitation Number 7FXG-
                            Y8-95-7354-B

06/17/96      A61842        Preaward Audit of Multiple Award Schedule Contract:
                            Universal Gym Equipment, Inc., Solicitation Number 7FXG-
                            13-96-7802-B

06/20/96      A61536        Preaward Audit of Multiple A ward Schedule Contract: Life
                            Fitness, Solicitation Number 7FXG-J3-96-7802-B




44 Semiannual Report To The Congress
                    Appendix //- Audit Report Register
                                                                                                Financial
                                                                                           Recommendations
                                                                                                        -
                                                                                    --------,._-----------
                                                                                      Funds To          Questioned
Date of    Audit                                                                      Be Put To       (Unsupported)
Report     Number                              Title                                  Better Use          Costs

06121/96   A60935     Postaward Audit of Multiple Award Schedule Contract:
                      Vicon Industries, Inc., Contract Number GS-03F-4074B for
                      the Interim Period April 1, 1994 Through September 30, 1995

06121196   A61529     Interim Period Postaward Audit of Multiple Award Schedule
                      Contract: Quartet Manufacturing Company, Contract Number
                      GS-00F-6131B

06121196   A6l541     Preaward Audit of Multiple Award Schedule Contract:
                      Steelcase, Inc., Solicitation Number 3FNS-B8-950001-B

06124/96   A62486     Preaward Audit of Multiple Award Schedule Contract:
                      Krueger International, Solicitation Number 3FNS-95-G201-B

06125/96   A52133     Postaward Audit of Multiple A ward Schedule Contract:                                  $220,050
                      Attachmate Corporation, Contract Number GSOOK-
                      93AGS6191

06126/96   A61840     Pre award Audit of Multiple Award Schedule Contract: U.S.
                      Toy Co., Inc., d/b/a/ Constructive Playthings, Solicitation
                      Number 7FXG-J3-96-7802-B

06127/96   A63633     Preaward Audit of Multiple Award Schedule Contract:
                      Cleveland Range, Inc., Solicitation Number 7FXG-Y8-95-
                      7354-B

06128/96   A61539     Preaward Audit of Multiple Award Schedule Contract:
                      Stee1case, Inc., Solicitation Number 3FNS-95-G201-B

07/09/96   A61820     Postaward Audit of Multiple Award Schedule Contract:                                    $27,942
                      Plotter Supplies, Inc., Contract Number GS-02F-2046A for
                      the Period September 1, 1990 Through February 29, 1996

07110/96   A62488     Preaward Audit of Multiple Award Schedule Contract:
                      Stairmaster Sports/Medical Products, L.P., Solicitation
                      Number 7FXG-J3-96-7802-B

07111/96   A61243     Preaward Audit of Multiple Award Schedule Contract:
                      Kaplan School Supply Corporation, Solicitation Number
                      7FXG-J3-96-7802-B

07111/96   A61249     Limited Postaward Audit of Government Billings: Kaplan                                   $3,039
                      School Supply Corporation, Contract Number GS-07F-8442C




                                                                                            Office of Inspector General 45
                       Appendix //- Audit Report Register
                                                                                                             Financial
                                                                                                        Recommendations
                                                                                            - ..   -~~-.--".~"-~.--.-,--.---_._-----
                                                                                                   Funds To          Questioned
Date of       Audit                                                                                Be Put To       (Unsupported)
Report        Number                                  Title                                        Better Use           Costs


07/15/96      A62452        Preaward Audit of Multiple Award Schedule Contract: Gill
                            Marketing Company, Dealer for Hobart Corporation,
                            Solicitation Number 7FXG-YS-95-7354-B

07115196      A62479        Preaward Audit of Multiple Award Schedule Contract: Gill
                            Marketing Company, Dealer for Servolift/Eastern
                            Corporation, Solicitation Number 7FXG-Y8-95-7354-B

07/16/96      A60926        Postaward Audit of Multiple Award Schedule Contract:                                        $25,332
                            Eastman Kodak Company, Contract Number GS-00F-4431A
                            (Purchases & Consumable Supplies) for the Period
                            November 30, 1990 Through September 30, 1993

07118196      A60658        Preaward Audit of Multiple Award Schedule Contract:
                            CenterCore Group, Inc., Solicitation Number 3FNS-BS-
                            950001-B

07122/96      A61246        Preaward Audit of Multiple Award Schedule Contract:
                            Nautilus International, Inc., Solicitation Number 7FXG-J3-
                            96-7802-B

07122/96      A61248        Preaward Audit of Multiple Award Schedule Contract: ABC
                            School Supply, Incorporated, Solicitation Number 7FXG-J3-
                            96-7802-B

07/23/96      A60345         Audit of Cost and Pricing Data: Subcontractors to Beech
                             Aircraft Corporation, Solicitation Number GS- KEGD-95-
                             1009

07/23/96      A624S4        Preaward Audit of Multiple Award Schedule Contract: Hobart
                            Corporation, Manufacturer for Gill Marketing Company,
                            Solicitation Number 7FXG-YS-95-7354-B

07125196      A60655        Limited Scope Postaward Audit of Multiple Award Schedule
                            Contract: Olympus America, Inc., Contract Number GS-24F-
                            1292C

07/25/96      A62119        Preaward Audit of Multiple Award Schedule Contract: Sport
                            Supply Group, Inc., Solicitation Number 7FXG-J3-96-7802-B

07/29/96      A60652        Preaward Audit of Cost or Pricing Data: Caswell International
                            Corporation, Solicitation Number 2FYG-JI-94-0004-B-l

07/29/96      A61553         Preaward Audit of Multiple Award Schedule Contract: Herman
                             Miller, Inc., Solicitation Number 3FNS-BS-95000l-B




46 Semiannual Report To The Congress
                    Appendix //- Audit Report Register
                                                                                               Financial
                                                                                          Recommendations
                                                                                     Funds To          Questioned
Date of    Audit                                                                     Be Put To       (Unsupported)
Report     Number                              Title                                 Better Use          Costs

07/30/96   A61540     Preaward Audit of Multiple Award Schedule Contract:
                      Trendway Corporation, Solicitation Number 3FNS-B8-
                      95000l-B

08/02/96   A60941     Price Adjustments on Multiple Award Schedule Contract:
                      Interface Flooring Systems, Inc., Contract Number GS-OOF-
                      0002A for the Interim Period October 8, 1992 Through
                      March 31, 1996

08/12/96   A61848     Postaward Audit of Multiple Award Schedule Contract: Bike                           $23,564
                      Lokr Company, Contract Number GS-07F-6320A for the
                      Interim Period September 1, 1992 Through June 30,1996

08/12/96   A63638     Preaward Audit of Multiple Award Schedule Contract:
                      Rubbermaid Commercial Products, Inc., Solicitation Number
                      7FXI-B7-95-7253-3

08/13/96   A51851     Postaward Audit of Multiple Award Schedule Contract:                              $360,322
                      Tiffany Office Furniture, Contract Number GS-00F-5057 A
                      for the Interim Period April 15, 1991 Through April 12, 1995

08/13/96   A60657     Preaward Audit of Multiple Award Schedule Contract: GF
                      Office Furniture, Ltd., Solicitation Number 3FNS-B8-
                      95000l-B

08/15/96   A51827     Postaward Audit of Multiple Award Schedule Contract:                              $331,173
                      Sybase, Inc., Contract Number GSOOK92AGS5576 for the
                      Period September 9, 1992 Through September 30, 1993

08/22/96   A50915     Postaward Audit of Multiple Award Schedule Contract:                              $162,144
                      Philips Communication & Security Systems Inc. (Formerly
                      BurIe Industries, Incorporated), Contract Number GS-03F-
                      2035A for the Period December 20, 1991 Through June 30,
                      1994

08/22/96   A60660     Preaward Audit of Multiple Award Schedule Contract: GF
                      Office Furniture, Ltd., Solicitation Number 3FNS-95-G20l-B

08/22/96   A60938     Postaward Audit of Multiple Award Schedule Contract:
                      Eastman Kodak Company, Contract Number GS-00F-4431A
                      (Microphotographic Maintenance) for the Period
                      November 21, 1990 Through September 30, 1993

08/23/96   A30904     Postaward Audit of Multiple Award Schedule Contract:                              $101,491
                      Capp, Incorporated, Contract Number GS-07F-3227 A for the
                      Period October 1, 1990 to October 31, 1992



                                                                                          Office of Inspector General 47
                       Appendix //- Audit                                 ort Regis
                                                                                                   Financial
                                                                                              Recommendations
                                                                                                        ~-~.   ~   "------_.,-

                                                                                         Funds To          Questioned
Date of       Audit                                                                      Be Put To       (Unsupported)
Report        Number                                 Title                               Better Use          Costs


08/23/96      A60348         Price Adjustments on Multiple Award Schedule Contract:
                             S&S Worldwide, Contract Number GS-07F-4823A

08/23/96      A60664         Limited Scope Posta ward Audit of Multiple Award Schedule                              $18,425
                             Contract: CenterCore Group, Inc., Contract Number GS-
                             00F-9003A

08/26/96      A41809         Postaward Audit of Multiple Award Schedule Contract:                              $1,963,190
                             Baxter Healthcare Corporation, Contract Number
                             GSOOF03606 for the Period June 1, 1988 Through May 31,
                             1991

08/26/96      A6l549         Preaward Audit of Multiple Award Schedule Contract:
                             Haworth, Inc., Solicitation Number 3FNS-B8-95000 1-B

08/28/96      A61550         Preaward Audit of Multiple Award Schedule Contract:
                             Haworth, Inc., Solicitation Number 3FNS-95-G201-B

08/29/96      A62133         Preaward Audit of Multiple Award Schedule Contract:
                             Motorola, Inc., Supplemental Data Submitted Under
                             Solicitation Number GSC-KES-00066-N-08-09-95

08/30/96      A63635         Preaward Audit of Multiple Award Schedule Contract:
                             American Seating Company, Solicitation Number 3FNS-B8-
                             95000l-B

09/03/96      A63636        Postaward Audit of Multiple Award Schedule Contract:                                       $810
                            Government Scientific Source, Inc., Contract Number GS-
                            24F-1320C and GS-25F-5077C

09/05/96      A60343         Postaward Audit of Multiple Award Schedule Contract:
                             Edward Ochman Systems, Contract Number GS-OOF-5350A

09/06/96      A62118        Postaward Audit of Multiple Award Schedule Contract:                                    $17,469
                            Silicon Graphics, Inc., Contract Number GSOOK92AGS5993

09/16/96      A62505        Postaward Survey of Multiple Award Schedule Contract:
                            Charter of Lynchburg, Inc., Contract Numbers GS-27F-
                            2023B & GS-27F-2024B

09/17/96      A62499        Preaward Audit of Multiple Award Schedule Contract: TAB
                            Products Company, Solicitation Number 3FNS-95-G201-B

09/23/96      A60665        Postaward Audit of Multiple Award Schedule Contract:
                            Controlotron, Inc., Contract Number GS-24F-1133B for the
                            Interim Period August 1, 1994 Through June 30, 1996



48 Semiannual Report To The Congress
                    Appendix //- Audit Report Register
                                                                                                           Financial
                                                                                                    Recommendations
                                                                                    ----;;c;F-un---cdo-s To        Question~e('--
Date of    Audit                                                                         Be Put To               (Unsupported)
Report     Number                              Title                                    Better Use                    Costs


09125/96   A60947     Preaward Audit of Multiple Award Schedule Contract: Knoll
                      North America, Inc., Solicitation Number 3FNS-B8-950001-B

09/25/96   A61251     Audit of Claim for Increased Costs: CARAM, Contract
                      Number GS-07F-56600

09125/96   A61546     Pre award Audit of Multiple Award Schedule Contract:
                      Allsteel, Inc., Solicitation Number 3FNS-B8-950001-B

09125/96   A61547     Preaward Audit of Multiple Award Schedule Contract:
                      Allsteel, Inc., Solicitation Number 3FNS-95-G201-B

09126/96   A62135     Limited Postaward Audit of Multiple Award Schedule                                         $638,064
                      Contract Refund: Motorola, Incorporated, Contract Number
                      GSOOK90AGS0703


ITS        INTERNAL AUDITS
07122/96   A61817     Audit of the Federal Information Systems Support Program in
                      the Heartland Region

08/16/96   A60329     Interim Advisory Report on the Federal Operations Review
                      Model Analysis of the Information Technology Integration
                      Business Line

09/18/96   A62434     Audit of the Management of Software Licenses


ITS        CONTRACT AUDITS
04124/96   A60939     Preaward Audit of Federal Information Processing Support
                      Services Contract: Rockwell International Corporation,
                      Solicitation Number GSC-KEGD-95-1009

04/29196   A60337     Preaward Audit of Cost and Pricing Data: Raytheon Service
                      Company and Raytheon Support Services Company,
                      Solicitation Number GSC-KEGD-95-1009

05/13/96   A63632     Preaward Audit of Cost or Pricing Data: Kottmann, Inc.,
                      Solicitation Number GSC-KRGB-9602

06/17/96   A42471     Postaward Audit of Multiple Award Schedule Contract: Cisco                              $1,403,554
                      Systems, Inc., Contract Number GS-00K-91-AGS-5016


FTS        INTERNAL AUDITS
05128/96   A63018     Follow-up Audit of FTS2000 7 to 10 Digit Conversion



                                                                                             Office of Inspector General 49
                       Appendix 11- Audit R ort Register
                                                                                                    Financial
                                                                                               Recommendations
                                                                                           "-------------.~.~----




                                                                                          Funds To          Questioned
Date of       Audit                                                                       Be Put To       (Unsupported)
Report        Number                                 Title                                Better Use          Costs


FTS           CONTRACT AUDITS
05/30/96      A60646        Postaward Audit of Labor Rate Prices: CSC Consulting &
                            Systems Integration, Subcontractor to AT&T
                            Communications, Contract Number GS-00K-89AHD-0008                                 $64,412

07116196      A60659        Postaward Audit of Facility Charges Billed: CSC Consulting
                            & Systems Integration, Subcontractor to AT&T
                            Communications, Contract Number GSOOK89AHD0008

08128/96      A60663        Preaward Audit of Change Order Proposal: AT&T
                            Communications, Contract Number GS-00K-89AHD0008


OTHER         INTERNAL AUDITS
04/02/96      A52170        Audit of Cash Deposits to Treasury

07/08/96      A61512         Audit of the Impact of Approved Buyouts on GSA Operations

09/06/96      A52165        Audit of the Validation of Open Obligations in Region 7 by
                            the Finance Division and the Public Buildings Service

09/27/96      A52729         Survey Report on GSA's Tax-Related Information Reporting

09127196      A61522        Audit of Security Clearances and Background Gheoks, Great
                            Lakes Region                                                                                ------
09127/96      A63311        GSA Needs to Take Prompt Management Actions to Ensure
                            Computer Systems Can Operate in The Year 2000

09127/96      A63317        GSA Needs to Take Additional Actions to Implement the
                            Federal Workforce Restructuring Act of 1994

NON-GSA INTERNAL AUDITS
06/07/96      A63022        Audit of the Administrative Procedures of the National
                            Capital Planning Commission

07117196      A63028        Audit of the Administrative Practices and Procedures of the
                            United States Nuclear Waste Technical Review Board




50 Semiannual Report To The Congress
                             Appendix 111- Delinquent Deb

GSA's Office of the Chief Financial Officer provided the               • Continued to utilize Governmentwide debt collection
following information.                                                   contracts with private debt collection agencies for the most
                                                                         difficult debts. This is a particularly useful vehicle for debt
GSA Efforts to Improve Debt Collection                                   collection because the debt collection agency only charges
                                                                         GSA for debts collected.
During the period April 1, 1996 through September 30, 1996,
GSA efforts to improve debt collection and reduce the amount           • Executed administrative offsets of $120,576.
of debt written off as uncollectible focused on upgrading the
                                                                       • Continued to work with any debtor with a financial hardship
collection function and enhancing debt management. These
                                                                         by entering into a promissory note for installment payments.
activities included the following:
                                                                         This saves GSA and the Department of Justice time and
                                                                         money by not having to prosecute someone who cannot or
• Continued to participate in formal training and seminars
                                                                         will not pay a debt.
  which focus on programs or new developments in debt
  collection.                                                          • Continued to conduct quarterly follow-ups with GSA
                                                                         contracting officers concerning their initiation and
• Continued participating in the Tax Refund Offset program
                                                                         processing of contractual claims. These follow-ups
  which has proven successful in collecting debts as well as
                                                                         emphasize the importance of timely and correct claims
  indicating to the debtor in the pre-offset letter that the debt
                                                                         processing.
  will be referred to the Internal Revenue Service.
• Referred all debtors who do not respond to collection to a
  debt collection agency before being written off or
  forwarded to the Department of Justice.


Non-Federal Accounts Receivable

                                                               As of                        As of
                                                          April 1, 1996             September 30, 1996           Difference

 Total Amounts Due GSA                                      $24,914,183                   $19,822,017           $(5,092,166)
 Amount Delinquent                                          $15,328,261                   $17,684,071           $ 2,355,810


 Total Amount Written
 Off as Uncollectible
 Between 4/1/96 and
 9/30/96                                                            $68,128


Of the total amounts due GSA and the amounts delinquent                approximately $465,000 and $399,000 respectively, are
as of April 1, 1996 and September 30, 1996,                            being disputed.




                                                                                                          Office of Inspector General 51
                         Appendix IV ..- Reporting                                                                        quirements

The table below cross-references the reporting requirements                                      96-829 relative to the 1980 Supplemental Appropriations and
prescribed by the Inspector General Act of 1978, as amended,                                     Rescission Bill is also cross-referenced to the appropriate page
to the specific pages where they are addressed. The                                              of the report.
information requested by the Congress in Senate Report No.



                                                                Requirement                                                                                                   Page
 Inspector General Act

       Section 4(a)(2)-Review of Legislation and Regulations ............................................................................................. 24

       Section 5(a)(l)-Significant Problems, Abuses, and Deficiencies ..............................................................................2,9

       Section 5(a)(2)-Recommendations With Respect to Significant Problems, Abuses,
          and Deficiencies ............................. '" .................................................................................................................... 2,9

       Section 5(a)(3)-Prior Recommendations Not Yet Implemented ................................................................................ 33

       Section 5(a)(4)-Matters Referred to Prosecutive Authorities ..................................................................................... 29

       Sections 5(a)(5) and 6(b )(2)-Summary of Instances Where Information Was Refused ........................................ None

       Section 5(a)(6)-List of Audit Reports ......................................................................................................................... 36

       Section 5(a)(7)-Summary of Each Particularly Significant Report .......................................................................... .2,9

       Section 5(a)(8)-Statistical Tables on Management Decisions on Questioned Costs .................................................. 28

       Section 5(a)(9)-Statistical Tables on Management Decisions on Recommendations
          That Funds Be Put to Better Use ............................................................................................................................ 27

       Section 5(a)(lO)-Summary of Each Audit Report Over 6 Months Old for Which No
          Management Decision Has Been Made ............................................................................................................. None

       Section 5(a)(11)-Description and Explanation for Any Significant Revised
          Management Decision ....................................................................................................................................... None

       Section 5(a)( 12)-Information on Any Significant Management Decisions With Which
          the Inspector General Disagrees ........................................................................................................................ None

 Senate Report No. 96-829
       Resolution of Audits .................................................................................................................................................... 26

       Delinquent Debts ......................................................................................................................................................... 51




52 Semiannual Report To The Congress
•     ,
I

                                I
                                •
            •
            I •
To report suspected waste,
fraud, abuse, or mismanagement
in GSA, can your

Inspector               eneral's Hotline
ToUMfree 1m800~424-521 0
Washington, DC metropolitan area
(202) 501-1780

or write:       GSA, IG, Hotline Officer
                Washington, DC 20405
                        ~
Federal Recycling program""   Printed on Recycled Paper
